Appendix

1a
United States Court of Appeals
For the Eighth Circuit

No. 18-1022

United States of America, ex rel. Stephanie
Strubbe; Carmen Trader; Richard Christie,
relators
Plaintiffs - Appellants
v.
Crawford County Memorial Hospital; Bill
Bruce, Individually
Defendants - Appellees

Appeal from United States District Court for
the Northern District of Iowa - Sioux City

Submitted: November 13, 2018

2a
Filed: February 11, 2019

Before BENTON, BEAM, and ERICKSON,
Circuit Judges.

BENTON, Circuit Judge.
Stephanie A. Strubbe, Carmen Trader, and
Richard Christie sued Crawford County Memorial
Hospital (CCMH) as relators in a qui tam action
for violations of the False Claims Act. 31 U.S.C. §
3729(a). They also sued CCMH and its Chief
Executive Officer, Bill Bruce, for violating the
FCA’s anti-retaliation provision.
§ 3730(h). The district court 1 granted CCMH’s
motion to dismiss all counts of the complaint,
except Strubbe’s retaliation claim. As for it, the
district court granted CCMH’s motion for
summary judgment. Strubbe v. Crawford Cty.
Mem’l Hosp., 2017 WL 8792692 (N.D. Iowa Dec. 6,
2017). Having jurisdiction under 28 U.S.C.
§ 1291, this court affirms.
I.

The Honorable Leonard T. Strand, Chief Judge, United
States District Court for the Northern District of Iowa.

1

3a
Crawford County Memorial Hospital is a
county-owned nonprofit hospital in Iowa. In April
2012, Bruce became its Chief Executive Officer.
At CCMH, Strubbe was an Emergency Medical
Technician (EMT), and Christie and Trader were
paramedics. They filed a sealed qui tam complaint
as relators in April 2015. The United States
declined to intervene. The relators filed an
amended complaint. It alleges that CCMH
submitted
false
claims
for
Medicare
reimbursement and made false statements or
reports to get fraudulent claims paid. Specifically,
Count I alleges that CCMH violated the FCA by
submitting (1) claims for breathing treatments
administered by paramedics; (2) claims for
laboratory services done by paramedics and EMTs;
(3) claims with false credentials of service
providers; (4) claims for EMT and paramedic
services at Eventide, L.L.C. and Denison Care
Center; and (5) cost reports with improper
reimbursements and payments to vendors for nonCCMH expenses. Count II alleges CCMH
knowingly made or used false statements to get
false claims paid, including (1) records
documenting breathing treatments at 30 minutes;
(2) records listing paramedics as “specialized
ancillary staff” for breathing treatments; (3)
reimbursement requests and invoices for improper
payments for non- CCMH expenses; (4) documents
with false credentials for emergency medical staff;
and (5) cost reports with false costs. Count III
alleges that CCMH conspired with Eventide to
violate the Anti-Kickback Statute, 42 U.S.C. §
1320a-7b.

4a
Strubbe, Trader, and Christie also sued CCMH
and Bruce for violating the FCA’s anti-retaliation
provision. According to the complaint, Strubbe
began reviewing hospital financial documents in
July 2014. Soon after, she “spoke to all Board
members about the financial situation of CCMH
[and] her belief that the finances were not adding
up.” In November, Strubbe tore her rotator cuff at
work. Initially, CCMH put her on “light duty.” In
July 2015, however, CCMH told Strubbe her lightduty assignments were a financial hardship for the
hospital and moved her to part-time status. CCMH
removed Strubbe from part-time status in March
2016 (effectively a termination).
Christie and Trader also began investigating
CCMH’s finances in 2014. They complained to
other hospital staff that “there was something
wrong with the changes in the breathing
treatments.” Christie also complained there was
“potentially something wrong with the financial
statements provided by CCMH to the Board.” In
January 2015, Christie reported to her supervisor
that Jonathan Richard was “not properly licensed”
as a paramedic. Both Christie and Trader then
reported the license violation to the Iowa
Department of Public Health. Four months later,
CCMH transitioned Christie from night shifts to
day shifts. It terminated Christie later that month
for speeding while driving an ambulance. Trader
still works at CCMH as a paramedic, but claims
that it subjects him to harrassment and other
discriminatory treatment.
CCMH moved to dismiss the complaint. The
district court dismissed the substantive FCA

5a
claims for failure to plead with particularity
because the complaint did not set forth facts
showing any false claims were submitted, or plead
how the relators acquired this information. It also
dismissed Christie and Trader’s retaliation claims
as not stating a plausible claim for relief. However,
the court denied CCMH’s motion to dismiss
Strubbe’s retaliation claim. CCMH then moved for
summary judgment on it. Concluding that Strubbe
could not prove a prima facie case of retaliation,
the district court granted summary judgment to
CCMH.
II.
This court reviews de novo the district court’s
dismissal of a claim under Rule 9(b), “accepting the
allegations contained in the complaint as true and
drawing all reasonable inferences in favor of the
nonmoving party.” United States ex rel. Joshi v. St.
Luke’s Hosp., Inc., 441 F.3d 552, 555 (8th Cir.
2006). The False Claims Act (FCA) imposes
liability on anyone who “knowingly presents, or
causes to be presented, a false or fraudulent claim
for payment or approval” or who “knowingly
makes, uses, or causes to be made or used, a false
record or statement material to a false or
fraudulent claim.” 31 U.S.C. § 3729(a)(1)(A)-(B).
“The FCA attaches liability, not to the underlying
fraudulent activity, but to the claim for payment.”
Olson v. Fairview Health Servs. of Minn., 831 F.3d
1063, 1070 (8th Cir. 2016). Qui tam provisions
permit private persons, relators, to sue for

6a
violations in the name of the United States and to
recover part of the proceeds if successful. § 3730(b),
(d).
“Because the FCA is an anti-fraud statute,
complaints alleging violations of the FCA must
comply with Rule 9(b).” Joshi, 441 F.3d at 556.
Under Rule 9(b), “a party must state with
particularity the circumstances constituting fraud
or mistake.” This gives defendants notice and
protects them from baseless claims. United States
ex rel. Thayer v. Planned Parenthood of the
Heartland, 765 F.3d 914, 918 (8th Cir. 2014).
While Rule 9(b) is “context specific and flexible,”
id., a plaintiff cannot meet this burden with
conclusory and generalized allegations. Joshi, 441
F.3d at 557. Where “the facts constituting the
fraud are peculiarly within the opposing party’s
knowledge,” the “allegations may be pleaded on
information and belief” if “accompanied by a
statement of facts on which the belief is founded.”
Drobnak v. Andersen Corp., 561 F.3d 778, 783-84
(8th Cir. 2009).
To satisfy the particularity requirement for
FCA claims, “the complaint must plead such facts
as the time, place, and content of the defendant’s
false representations, as well as the details of the
defendant’s fraudulent acts, including when the
acts occurred, who engaged in them, and what was
obtained as a result.” Joshi, 441 F.3d at 556. A
relator can meet the Rule 9(b) requirements by
pleading (1) “representative examples of the false
claims,” or (2) the “particular details of a scheme to
submit false claims paired with reliable indicia
that lead to a strong inference that claims were

7a
actually submitted.” Thayer, 765 F.3d at 918. To
satisfy the particular details requirement, the
complaint must “provide sufficient details to
enable the defendant to respond specifically and
quickly to the potentially damaging allegations.”
Id. at 918-19.
A.
In Count I, the relators contend that CCMH
submitted false claims through a wide-ranging
fraudulent scheme. First, the complaint alleges
that shortly after Bruce became CEO, CCMH
required paramedics to perform breathing
treatments previously provided by nursing staff.
Hospital management told employees this change
was for “billing” and “cost reimbursement
purposes” and required them to document each
treatment at 30 minutes, regardless of its length.
The complaint alleges—upon information and
belief—that these changes allowed CCMH to bill
these treatments separately to get a higher
reimbursement from Medicare. Further, the
complaint alleges that CCMH treats paramedics
as “specialized staff,” making the treatments
separately billable. Relators also contend—upon
information and belief—that patients are receiving
breathing treatments who do not need them.
Second, the complaint alleges that CCMH
ordered paramedics and EMTs to perform
laboratory services, like blood draws. The relators
claim—upon information and belief—that this
change, like the breathing treatments, was

8a
intended to increase Medicare reimbursement by
allowing CCMH to bill these services separately.
Third, the complaint identifies three employees
with misclassified titles. For example, the
complaint alleges—upon information and belief—
that CCMH billed Medicare for Richard’s services
as a paramedic, though he was “not properly
licensed.” Fourth, the relators claim paramedics
and EMTs provided services at two other health
care facilities—Eventide and Denison. Based on
information and belief, CCMH instituted this
change to increase Medicare reimbursement.
Finally, the complaint alleges that CCMH reported
improper expenses to Medicare. Relators
contend—upon information and belief—that
CCMH submitted cost reports to Medicare with
payments to Bruce’s relatives above the market
value and with duplicate payments to the credit
card companies and the sellers.
Relators did not plead representative samples
of false claims. In Joshi, a hospital anesthesiologist
brought a qui tam claim alleging that the hospital
sought Medicare reimbursements at higher rates
and submitted claims for services and supplies not
provided. Joshi, 441 F.3d at 554. Joshi did not
provide representative samples, but alleged that
every claim over a sixteen-year period was
fraudulent. Id. at 556-57. Though Rule 9(b) does
not require alleging the “specific details of every
alleged fraudulent claim,” this court dismissed
Joshi’s claim because a relator “must provide some
representative examples of [the] alleged
fraudulent conduct, specifying the time, place, and

9a
content of [the] acts and the identity of the actors.”
Id. at 557.
The relators here pleaded more than the relator
in Joshi. However, like Joshi, the complaint here
alleges
a
fraudulent
scheme
without
representative examples with the required
specificity. For instance, the complaint alleges
CCMH submitted false claims for unnecessary
breathing treatments. It gives one example of a
patient who received an unnecessary breathing
treatment, but fails to include the date, the
provider performing the treatment, any specific
information about the patient, what money was
obtained, and most importantly, whether a claim
was actually submitted for that particular patient.
Under Thayer, a relator can also satisfy Rule
9(b) by pleading the “particular details of a scheme
to submit false claims paired with reliable indicia
that lead to a strong inference that claims were
actually submitted.” Thayer, 765 F.3d at 918. The
allegations in Count I are close to meeting this
standard. The complaint includes some details of
the fraudulent scheme. It pleads the names of the
individuals that instructed them to carry out the
breathing treatments and blood draws, the twoyear period when these services were provided,
and statements by their supervisor that the
changes to the breathing treatments were for
billing and cost reimbursement purposes. The
complaint also pleads how hospital management
told them to document each breathing treatment
at 30 minutes, regardless of its length. It includes
the names of three individuals who relators
believed were misclassified, and how Christie and

10a
Trader learned of Richard’s licensure violation.
The relators also give some details about one
receipt for gas and moving expenses that was
allegedly altered.
However, the complaint lacks the sufficient
indicia of reliability leading to a strong inference
that claims were actually submitted. In Thayer,
the relator—a center manager for several Planned
Parenthood clinics—alleged a fraudulent scheme.
Id. at 919. This court emphasized that the relator’s
position as center manager gave her personal
knowledge that false claims were submitted and
allowed her to plead specific details about the
billing system and practices, providing sufficient
indicia of reliability for two of Thayer’s claims. Id.
This court dismissed another claim where Thayer
did not have “access to the billing systems . . . [or]
knowledge of their billing practices,” leaving her
“only able to speculate that false claims were
submitted . . . .” Id. at 919- 20.
The relators here—paramedics and EMTs—did
not have access to the billing department. The
complaint did not include any details about
CCMH’s billing practices. See United States ex rel.
Grubbs v. Kanneganti, 565 F.3d 180, 190-91 (5th
Cir. 2009) (“Confronting False Claims Act
defendants with both an alleged scheme to submit
false claims and details leading to a strong
inference that those claims were submitted—such
as dates and descriptions of recorded, but
unprovided, services and a description of the
billing system that the records were likely entered
into—gives defendants adequate notice of the
claims.”). Nor did the complaint allege that the

11a
relators had personal knowledge of the billing
system or the submission of false claims. See
United States ex rel. Prather v. Brookdale Senior
Living Cmtys., 838 F.3d 750, 769-70 (6th Cir. 2016)
(relator’s allegations gave reliable indicia because
she had knowledge of billing documentation and
pleaded specific details like the treatment of four
patients, the dates of care, the dates the false
certification occurred, and the amount requested
for final payment). Some of the facts pleaded—
such as their supervisor’s statements that the
changes to breathing treatments were for billing
and cost reimbursement purposes—shows the
possibility that CCMH submitted claims.
However, the facts pleaded do not “lead to a strong
inference that claims were actually submitted.”
Thayer, 765 F.3d at 918 (emphasis added). See
Chesbrough v. VPA, P.C., 655 F.3d 461, 472 (6th
Cir. 2011) (“[T]his is not a situation in which the
alleged facts support a strong inference—rather
than simply a possibility—that a false claim was
presented to the government.”); Corsello v.
Lincare, Inc., 428 F.3d 1008, 1013 (11th Cir. 2005)
(declining to “make inferences about the
submission of fraudulent claims because such an
assumption would ‘strip[ ] all meaning from Rule
9(b)’s requirements of specificity’”) (alteration in
original).
The relators pleaded many key facts upon
information and belief, without providing a
“statement of facts on which the belief is founded.”
Drobnak, 561 F.3d at 784. See, e.g., Compl. ¶ 59
(“Upon information and belief, Richard’s services
were billed, in part, to Medicare. Richard was not,

12a
however, licensed in the State of Iowa as a
paramedic.”). They allege, “Certain vendors paid
by the hospital are personally related to Bruce and
their services are paid well above market value.
For example, thousands of dollars have been paid
to Bruce’s brother, who, upon information and
belief, owns an out-of-state moving company . . .
[which] is paid from CCMH funds to move doctors
. . . when it would be more economical to use a local
moving company.” Id. ¶ 74. Relators then claim,
upon information and belief, that these expenses
were included in cost reports to Medicare. They do
not explain how they know Bruce’s brother owns a
moving company or that CCMH is using it. A
generalized allegation that the hospital paid
vendors above market value and submitted a false
cost report—without a statement of facts on which
the belief is founded—does not sufficiently
demonstrate that these were improper expenses or
were included on cost reports. See Drobnak, 561
F.3d at 784 (when pleading on information and
belief, allegations must be “accompanied by a
statement of facts on which the belief is founded”).
Other allegations, which are not pleaded upon
information and belief, similarly do not identify
the underlying basis for the assertions. See
Thayer, 765 F.3d at 919 (“Thayer’s claims thus
have sufficient indicia of reliability because she
provided the underlying factual bases for her
allegations.”). For instance, the relators plead,
“The paramedics were told by their managers, in
writing, that no matter how long the breathing
treatments took, to document on the timesheets

13a
that the treatments took at least 30 minutes.
These timesheets are used in billing to Medicare.”
Compl. ¶ 30. The relators—who do not allege
personal knowledge of the hospital’s billing
practices—do not explain how they knew the
timesheets were used to bill Medicare. They also
do not plead a single example where they
performed a breathing treatment in less than 30
minutes.
Because the relators failed to plead fraud with
particularity, the district court properly dismissed
Count I under Rule 9(b).
B.
In Count II, relators sued under 31 U.S.C. §
3729(a)(1)(B), which imposes liability on anyone
who “knowingly makes, uses, or causes to be made
or used, a false record or statement material to a
false or fraudulent claim.” The false statements
alleged include: records for 30-minute breathing
treatments, records for breathing treatments
listing paramedics as “specialized ancillary staff,”
improper payment requests for non-CCMH
expenses, documents misclassifying employees
like Richard, and cost reports listing false costs.
Though claims under § 3729(a)(1)(B) do not require
proof that CCMH submitted a false claim, relators
must still “plead a connection between the alleged
fraud and an actual claim made to the
government.” United States ex rel. Ibanez v.
Bristol-Myers Squibb Co., 874 F.3d 905, 916 (6th
Cir. 2017). See United States ex rel. Grant v.

14a
United Airlines, Inc., 912 F.3d 190, 200 (4th Cir.
2018) (reasoning that a relator asserting a claim
under § 3729(a)(1)(B) “is still required to show that
a false claim was submitted to the government”).
Cf. Grubbs, 565 F.3d at 193 (“[T]he recording of a
false record, when it is made with the requisite
intent” to get a false claim paid “is enough to
satisfy the statute . . . .”). The complaint here, as
discussed above, fails to connect the false records
or statements to any claim made to the
government. Further, like Count I, many of the
allegations are founded upon information and
belief without a statement of facts on which the
belief is founded. Drobnak, 561 F.3d at 784. Count
II was properly dismissed.
C.
Count III alleges that CCMH conspired with
Eventide to violate the Anti- Kickback Statute. To
satisfy Rule 9(b)’s particularity requirements, this
claim must plead the details of a conspiracy,
including an agreement between CCMH and
Eventide, and an overt act in furtherance of the
conspiracy. Grubbs, 565 F.3d at 193. Because the
complaint does not include any details about an
agreement, the relators fail to plead the conspiracy
with particularity. The district court properly
dismissed the conspiracy claim.

15a
III.
The FCA protects employees who are
“discharged, demoted, . . . harassed, or in any other
manner discriminated against in the terms and
conditions of employment
because of lawful acts done by the employee . . .
in furtherance of” a civil action under the FCA “or
other efforts to stop 1 or more violations” of the
FCA. 31 U.S.C. § 3730(h). To prove retaliation in
violation of the FCA, a plaintiff must prove that
“(1) the plaintiff was engaged in conduct protected
by the FCA; (2) the plaintiff’s employer knew that
the plaintiff engaged in the protected activity; (3)
the employer retaliated against the plaintiff; and
(4) the retaliation was motivated solely by the
plaintiff’s protected activity.” Schuhardt v.
Washington Univ., 390 F.3d 563, 566 (8th Cir.
2004).
The relators allege that Bruce can be held
individually liable for his acts in their FCA
retaliation claims. CCMH—not Bruce—is the
relators’ employer. They appear to argue that a
2009 amendment to the FCA—which removed an
explicit reference to retaliatory acts by an
“employer”—expands liability. Before the 2009
amendment, federal courts—including this court—
uniformly held that the FCA did not impose
individual liability for retaliation claims. See
United States ex rel. Golden v. Arkansas Game &
Fish Comm’n, 333 F.3d 867, 870-71 (8th Cir. 2003).
After the 2009 amendment, numerous courts still
hold that the FCA does not create individual

16a
liability because Congress deleted the word
“employer” so contractors and agents could bring
FCA retaliation claims. E.g., Howell v. Town of
Ball, 827 F.3d 515, 529- 30 (5th Cir. 2016).
“Congress acts with knowledge of existing law, and
[ ] absent a clear manifestation of contrary intent,
a . . . revised statute is presumed to be harmonious
with existing law and its judicial construction.”
Estate of Wood v. C.I.R., 909 F.2d 1155, 1160 (8th
Cir. 1990). Because Congress did not amend the
FCA to impose individual liability, the FCA does
not impose individual liability for retaliation
claims. The district court correctly dismissed the
claims against Bruce.
A.
To survive a motion to dismiss, the complaint
must “state a claim to relief that is plausible on its
face,” meaning that the “plaintiff pleads factual
content that allows the court to draw the
reasonable inference that the defendant is liable
for the misconduct alleged.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009), quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007). This court
reviews de novo the dismissal for failure to state a
claim. Drobnak, 561 F.3d at 783.
The district court found that Christie and
Trader did not engage in protected activity and
dismissed their claims. Christie and Trader claim
they engaged in two different types of protected
activity: (1) complaining to hospital staff about the
breathing treatments, and (2) reporting Richard’s

17a
license violation to the State. Additionally,
Christie claims his investigations into CCMH’s
financial matters are protected activity. An
employee’s conduct must satisfy two conditions to
constitute protected activity. Schuhardt, 390 F.3d
at 567. First, it “must have been in furtherance of
an FCA action” or an effort to stop one or more FCA
violations.
§ 3730(h); Schuhardt, 390 F.3d at 567. Second,
the conduct “must be aimed at matters which are
calculated, or reasonably could lead, to a viable
FCA action,” meaning the employee “in good faith
believes, and . . . a reasonable employee in the
same or similar circumstances might believe, that
the employer is possibly committing fraud against
the government.” Schuhardt, 390 F.3d at 567.
Even assuming Christie and Trader engaged in
protected activity, their retaliation claims fail to
state a plausible claim because they did not
adequately plead that CCMH knew they were
engaging in protected activity. They must show
CCMH knew they were “either taking action in
furtherance of a private qui tam action . . . [,]
assisting in an FCA action brought by the
government,” or taking some other action to stop
an FCA violation. Id. at 568; § 3730(h). Christie
and Trader both complained to hospital staff about
the breathing treatments and the financial
situation at CCMH. Christie also emailed the
compliance manager to inform CCMH he made a
report about Richard’s license “as required by Iowa
law.” However, to provide actual or constructive
knowledge, employees must connect the alleged
misconduct to fraudulent or illegal activity or the

18a
FCA. See Schuhardt, 390 F.3d at 568-69 (plaintiff
gave her employer notice of protected activity after
she advised her supervisor that the organization’s
conduct could be “fraudulent and illegal” and that
“if the OIG would come in they would frown upon
us and they’d pretty much wipe us out”). The
complaint here does not allege that Christie and
Trader told CCMH or the State that CCMH’s
behavior was fraudulent or potentially subjected it
to FCA liability. Reporting a license violation to
the State does not tell CCMH that these employees
believe it is acting fraudulently, especially where
Christie pleaded he was “required to tell” state
officials about Richard’s license because “otherwise
he himself could lose his licensure” under state
law. Likewise, complaining to hospital staff about
CCMH’s financial situation and the changes to
breathing treatments does not give CCMH notice
that Christie and Trader were taking action in
furtherance of a qui tam action or to stop an FCA
violation. Id. at 568.
Because the relators did not sufficiently plead
that CCMH knew they were engaging in protected
activity, the district court properly dismissed their
retaliation claims.
B.
This court reviews de novo the grant of
summary judgment, viewing all evidence most
favorably to the nonmoving party. Id. at 566.
Summary judgment is appropriate if there is no
genuine issue of material fact and the moving

19a
party is entitled to judgment as a matter of law.
Fed. R. Civ. P. 56(a). CCMH is entitled to summary
judgment if Strubbe “has failed to make a
sufficient showing on an essential element of her
case with respect to which she has the burden of
proof.” See Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986).
In the absence of direct evidence of retaliation,
courts apply the McDonnell Douglas framework to
retaliation claims. McDonnell Douglas Corp. v.
Green, 411
U.S. 792 (1973). While this court has not
explicitly adopted this framework for FCA
retaliation claims, it applies it to other
whistleblower statutes. See, e.g., Elkharwily v.
Mayo Holding Co., 823 F.3d 462, 470 (8th Cir.
2016) (assuming without deciding that the
framework applies to the Emergency Medical
Treatment Active Labor Act). Most of the other
circuits use the framework for FCA retaliation
claims. See Diaz v. Kaplan Higher Educ., L.L.C.,
820 F.3d 172, 175 & n.3 (5th Cir. 2016) (collecting
cases and adopting the framework for FCA
retaliation claims). This court will apply the
McDonnell Douglas framework to FCA retaliation
claims.
Under McDonnell Douglas, Strubbe bears the
initial burden of establishing a prima facie case of
FCA retaliation. Elkharwily, 823 F.3d at 470. To
establish a prima facie case, Strubbe must show
that (1) she engaged in protected conduct, (2)
CCMH knew she engaged in protected conduct, (3)
CCMH retaliated against her, and

20a
(4) “the retaliation was motivated solely by
[Strubbe’s] protected activity.” Schuhardt, 390
F.3d at 566. If Strubbe establishes a prima facie
case, the burden shifts to CCMH to “articulate a
legitimate reason for the adverse action.”
Elkharwily, 823 F.3d at 470. The burden then
shifts back to Strubbe to demonstrate that “the
proffered reason is merely a pretext and that
retaliatory animus motivated the adverse action.”
Id.
Like Christie and Trader, Strubbe’s complaints
to the CCMH Board and sheriff about “financial
wrongdoing” and her investigations into CCMH’s
finances are not protected activity. There is no
indication they were made in furtherance of an
FCA action or were an effort to stop an FCA
violation. She did not connect her concerns about
CCMH’s finances to fraud, the FCA, or any
unlawful activity. See Green v. City of St. Louis,
507 F.3d 662, 667-68 (8th Cir. 2007) (reasoning the
plaintiff did not engage in protected activity
because he admitted he did not know whether the
city submitted any document with false
information when he complained about the city’s
policy). See also Robertson v. Bell Helicopter
Textron, Inc., 32 F.3d 948, 951 (5th Cir. 1994)
(recognizing that to engage in protected activity,
an employee should “express concerns about
possible fraud to their employers”). However,
Strubbe’s filing of an FCA claim is protected
conduct. § 3730(h).
The complaint was unsealed in November 2015,
alerting CCMH that Strubbe engaged in protected
activity. Strubbe claims that CCMH had notice

21a
before this because the federal government sent
informal interrogatories to CCMH in August 2015
that mimicked the open records request her
attorney sent in March. Strubbe presented no
evidence, however, that CCMH knew her attorney
sent that records request. Strubbe has shown only
that CCMH had knowledge of her protected
activity beginning in November 2015.
Retaliatory acts under the FCA include
discharging, demoting, suspending, threatening,
harrassing, or otherwise discriminating against an
employee.
§ 3730(h)(1). Strubbe’s removal from part-time
status—effectively a termination—in March 2016
is a retaliatory act.
Strubbe cannot prove that her termination was
solely motivated by protected activity. She
contends causation can be inferred because CCMH
assigned her light- duty work after she was
injured, but stopped once it learned of her FCA
claim. Meanwhile, Stacey Kruse, another
employee with a shoulder injury, continued to get
light-duty work. Strubbe claims that an email from
CCMH to Kruse, describing Kruse as a “low key
injured employee,” provides further proof CCMH
removed her from part-time status because of her
protected conduct. However, these events all
occurred before CCMH knew Strubbe brought the
FCA claim. They do not demonstrate CCMH
terminated Strubbe solely because of her protected
conduct.
CCMH did not terminate Strubbe until four
months after learning of her involvement in the

22a
FCA claim. By then, she had not performed work
at CCMH for six months. A temporal connection
between the protected conduct and adverse action
may be sufficient to establish a prima facie case
where the proximity is “very close.”
Clark Cty. Sch. Dist. v. Breeden, 532 U.S. 268,
273 (2001) (per curiam); Smith v. Allen Health
Sys., Inc., 302 F.3d 827, 833 (8th Cir. 2002) (two
weeks between protected conduct and adverse
action sufficient to establish prima facie case).
Generally, however, “more than a temporal
connection between the protected conduct and the
adverse employment action is required to present
a genuine factual issue on retaliation.” Kiel v.
Select Artificials, Inc., 169 F.3d 1131, 1136 (8th
Cir. 1999) (en banc). Here, the four months
between the unsealing of the complaint and her
removal from part-time status is too attenuated to
establish a prima facie case. See Kipp v. Missouri
Highway & Transp. Comm’n, 280 F.3d 893, 897
(8th Cir. 2002) (two months between complaint
and termination “dilutes any inference of
causation”).
Even if the facts suggested Strubbe’s removal
was solely motivated by her protected conduct,
CCMH has provided a legitimate, nondiscriminatory reason. CCMH claims it removed
Strubbe from part-time status under its policy
requiring employees to have worked in the
previous six months. Strubbe can prove this reason
is pretextual by showing CCMH “(1) failed to follow
its own policies, (2) treated similarly-situated
employees in a disparate manner, or (3) shifted its
explanation of the employment decision.”

23a
Schaffhauser v. United Parcel Serv., Inc., 794 F.3d
899, 904 (8th Cir. 2015). CCMH’s policy states,
“The minimum requirement to remain a per diem
employee is to have worked in the past six months
. . . .” CCMH followed this policy when it
terminated Strubbe. By the time it removed her
from part-time status, Strubbe had not worked as
an EMT for over a year and had not performed any
work for CCMH for six months. CCMH has not
changed its explanation for Strubbe’s termination.
Strubbe claims that CCMH treated Kruse, a
similarly situated employee, differently by giving
her light-duty work. Strubbe has not demonstrated
that Kruse is similarly situated. She did not
provide sufficient information detailing the
significance of Kruse’s injury, her physical
limitations, her position at CCMH, or whether she
had worked in the last six months. Further, CCMH
sent Kruse the email
describing her as a “low key injured employee”
before CCMH learned of Strubbe’s FCA claim.
Strubbe cannot show that CCMH’s reason for her
termination was pretextual.
The district court properly granted summary
judgment for CCMH.
*******
The judgment is affirmed.

24a
BEAM, Circuit Judge, dissenting in part and
concurring in part.
I acknowledge that fraud cases receive more
scrutiny at the pleadings stage than the average
civil case. In a fraud case, rather than simply
providing notice in the pleadings under Federal
Rule of Civil Procedure 8, a plaintiff must "state
with particularity the circumstances constituting
fraud." Fed. R. Civ. P. 9(b). Originally, Rule 8
required something akin to, "I'm hurt, you did it,
pay me." See Conley v. Gibson, 355 U.S. 41, 45-46
(1957) (holding that "a complaint should not be
dismissed for failure to state a claim unless it
appears beyond doubt that the plaintiff can prove
no set of facts in support of his claim which would
entitle him to relief"). But see Bell Atl. Corp. v.
Twombly, 550 U.S. 544 (2007) & Ashcroft v. Iqbal,
556 U.S. 662 (2009) (effecting a landslide erosion
of Conley's liberal construction of Rule 8's pleading
standard). Because the FCA is an anti-fraud
statute, the complaint's false-claim allegations
must comply with Rule 9(b). However because Rule
9 does not eliminate Rule 8's notice pleading
standard, Zayed v. Associated Bank, N.A., 779
F.3d 727, 733 (8th Cir. 2015), and the relators'
pleadings in Counts I and II of their complaint
more than adequately give notice, with
particularity, of the fraud they are alleging, I
dissent in part.
"To satisfy the particularity requirement of
Rule 9(b), the complaint must plead such
facts as the time, place, and content of the
defendant's false representations, as well as
the details of the defendant's fraudulent

25a
acts, including when the acts occurred, who
engaged in them, and what was obtained as
a result." United States ex rel. Joshi v. St.
Luke's Hosp., Inc., 441 F.3d 552, 556 (8th
Cir. 2006). As the majority opinion
acknowledges, "[t]he relators here pleaded
more than the relator in Joshi" and that
"[t]he allegations in Count I are close to
meeting this standard." Ante at 6-7
(emphasis added). And yet, the court still
requires more of a relator than is necessary
at this stage of the proceedings.
I would find that the relators have met Rule 8
and 9 (and Joshi's) requirement for pleading fraud
with particularity. 441 F.3d at 556. Indeed, the
majority opinion and the district court essentially
require that the relators here witness the Medicare
forms being submitted in order to get past the
pleading stage in this case. If that were the case,
only someone with access to the hospital's internal
accounting records could successfully bring a qui
tam action in this situation. Indeed, as relators
point out, the accounting records became
unaccessible to employees and the public once Bill
Bruce became CEO (and incidentally, the HR
manager) of the hospital. Bruce and the hospital
can thus effectively eliminate any civil liability for
false claims by eliminating access to financial
information.
The complaint contained 198 paragraphs,
including 55 paragraphs in the "Specific and
Detailed Allegations" section, and spelled out the
impropriety of EMTs and paramedics being asked

26a
to perform work differently, and to perform work–
(i.e., breathing treatments on inpatients)–that
EMTs and paramedics were not the most qualified
and certainly not the most conveniently situated to
perform. The complaint alleges the relators were
told the reason for this abrupt change in procedure
and policy was for "billing" purposes. Comp. ¶¶ 2628. The complaint detailed the exponential
increase in separately billed "breathing"
treatments even while the number of hospital
patients declined. ¶¶ 33-35. The complaint
detailed how relators were required to make false
entries into the computer system that was used for
Medicare billing–averring that the treatments
lasted at least thirty minutes regardless of how
long the treatment lasted. ¶¶ 30, 98. Requiring the
relators to plead an exact day in which any one of
them performed a breathing treatment in less than
30 minutes, see ante at 9, is more than is
necessary. United States ex. rel Thayer v. Planned
Parenthood of the Heartland, 765 F.3d 914, 917-18
(8th Cir. 2014) (holding that a relator does not
have to plead specific examples in every case, and
instead a "relator can satisfy Rule 9(b) by 'alleging
particular details of a scheme to submit false
claims paired with reliable indicia that lead to a
strong inference that claims were actually
submitted'") (quoting United States ex rel. Grubbs
v. Kanneganti, 565 F.3d 180, 190 (5th Cir. 2009)).
Further, the relators did provide a concrete
example of a terminal patient who clearly did not
need a breathing treatment but was required to get
one. ¶ 37. Relators pleaded with particularity that
"Patient A, known to Relator Trader, was ordered

27a
to receive breathing treatments despite having
been in a traumatic, clearly terminal, accident." Id.
Two of the relators questioned the hospital's
nurses about giving breathing treatments to other
patients who clearly did "not need the treatments,
but they were told to give the treatments anyway."
¶ 38. The complaint goes on to explain that
breathing treatments given by paramedics, as
opposed to nurses, are billed differently and
generate more revenue for the hospital. ¶¶ 39-53.
There are links to governmental and industry
documents explaining this process. 2 The complaint
details specific accounts of staff who were held out
to be, and required to perform, acts of paramedics
and phlebotomists despite their lack of
certification. ¶¶ 59-63.
Although relators were not in a position to see
the bills generated after such computer entries, the
pleadings gave adequate notice of the natural
inference that the breathing treatments were
fraudulently and inflatedly billed the way they
were entered. Further, evidence of fraud–Bruce's
purported misuse of a hospital credit card–is
documented with particularity in the complaint
including: the day of payment to "Money Gram,"
the amount of payment, and the outcome of an
open records request which resulted in the
production of an altered receipt. ¶ 70.
In short, the district court, and a majority of
this court, essentially hold that short of the
Some of the government website links no longer work or
have been moved, but many of the links do indeed provide
the documentation described in the complaint.

2

28a
relators committing criminal activity by illegally
accessing the hospital's billing records, they cannot
successfully plead a false claims act case of
Medicare billing fraud. This should not be the state
of the law, especially as here "when the opposing
party is the only practical source for discovering
the specific facts supporting a pleader's
conclusion." Bos. & Maine Corp. v. Town of
Hampton, 987 F.2d 855, 866 (1st Cir. 1993),
overruled on other grounds by Educadores
Puertorriquenos en Accion v. Hernandez, 367 F.3d
61, 66-67 (1st Cir. 2004). In such cases, "less
specificity of pleading may be required pending
discovery." 987 F.2d at 866. See also United States
ex rel. Nargol v. DePuy Orthopaedics, Inc., 865
F.3d 29, 37-41 (1st Cir. 2017) (noting that
inferences can be used at the pleading stage of a
fraud case, especially where the relators have little
access to documentation, but clear knowledge of
the scheme), cert. denied, 18 S. Ct. 1551 (2018).
Accordingly, I dissent from Part IIA and IIB of the
opinion affirming the dismissal of Counts I and II
of the complaint. I concur in the remainder of the
court's opinion.

29a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
WESTERN DIVISION

STEPHANIE STRUBBE,
Plaintiff,
vs.
CRAWFORD
HOSPITAL,

COUNTY

MEMORIAL

Defendant.
No. C15-4034-LTS
ORDER ON MOTION FOR SUMMARY
JUDGMENT
I.

INTRODUCTION

This case is before me on a motion (Doc. No. 46)
for summary judgment filed by defendant
Crawford County Memorial Hospital (CCMH).
Plaintiff Stephanie Strubbe (Strubbe) filed a
resistance (Doc. No. 50) and CCMH filed a reply
(Doc. No. 58). The motion is fully submitted and
ready for decision.
II.

RELEVANT FACTS

The following facts are undisputed, except
where otherwise noted. CCMH is a county-owned
non-profit critical access hospital. Strubbe began

30a
working as an Emergency Medical Technician B
(EMT-B) at CCMH in March 2014. As part of the
job requirement, an EMT-B must be able to lift,
carry, push and pull objects that weigh more than
70 pounds.
On November 24, 2014, Strubbe injured her
back and right shoulder. On December 2, 2014,
Strubbe’s doctor issued a work restriction against
lifting more than five pounds. Six days later,
CCMH assigned Strubbe to light duty work. On
March 18, 2015, Strubbe’s doctor ordered that she
do no lifting at all. On April 6, 2015, Brad Bonner,
CCMH’s Human Resources Director, offered
Strubbe a temporary work assignment as support
to lab work, which included duties such as
removing staples and scanning documents. On
April 24, 2015, Strubbe had rotator cuff repair
surgery and continued to be unable to perform
work duties. She was again issued a full lifting
restriction. On May 4, 2015, Bonner offered
Strubbe another temporary work assignment.
On May 15, 2015, Strubbe’s doctor adjusted her
work restriction by prohibiting her from repetitive
motion and lifting, but allowed Strubbe to do clerical
work. However, on May 28, 2015, and June 1, 2015,
she reported experiencing pain when reaching while
performing her assigned clerical work. She was then
offered a temporary work assignment of proofreading, but continued to experience pain. On July
14, 2015, CCMH changed Strubbe’s work status to
part-time casual status due to her inability to
perform the functions of an EMT-B. On July 23,
2015, Strubbe was issued another restriction
prohibiting her from lifting ten pounds or more and

31a
from forceful pushing or pulling greater than ten
pounds. Those restrictions were extended on August
19, 2015. Strubbe did not perform any work for
CCMH after August 2015.
Since April 2013, CCMH had maintained a
policy for part-time employees that “the minimum
requirement to remain a per diem employee is to
have worked in the past six months and to have
attended all mandatory in-service training
required for the position.” Doc. No. 46-2 at 79–80.
As of March 4, 2016, Strubbe had not worked at
CCMH in any capacity for over six months and was
subsequently removed from part-time casual
status, thus ending her employment with CCMH.
While Strubbe was injured and on part-time
status, events were taking place that led to the
filing of a False Claims Act (FCA) action. Strubbe
claims that at some point in late November 2014,
she spoke with hospital board members about
“conducting an investigation into financial
wrongdoing of CCMH.” Doc. No. 52-1 at 7. The
board members told her they would look into her
complaints, but did not follow through. On March
27, 2015, Angela Campbell, counsel for Carmen
Trader and Richard Christie, submitted an open
records request under Iowa law for certain CCMH
financial documents. On April 9, 2015, CCMH
obtained counsel to respond to the records request.
On April 28, 2015, Strubbe joined with Trader and
Christie to file an FCA qui tam complaint against
CCMH. 1 On June 23, 2015, Bonner responded to
1Strubbe,

Trader and Christie will be referred to collectively
herein as the Relators.

32a
the open records request. In early August 2015,
CCMH was advised by the United States
Attorney’s office of a civil investigation into its
financial reporting. On August 27, 2015, CCMH
received interrogatories and a request for
document production from the United States
Attorney’s office. CCMH responded on October 16,
2015. The qui tam complaint was unsealed in
November 2015. 2
The Relators’ amended complaint (Doc. No. 12),
filed on June 6, 2016, alleged that CCMH and its
CEO Bill Bruce filed false claims with Medicare,
made false records or statements in order to make
fraudulent claims, and retaliated against the
Relators following protected activity, all in violation
of the FCA. Doc. No. 29 at 2. CCMH and Bill Bruce
then filed a motion (Doc. No. 23) to dismiss for failure
to state a claim. I dismissed Bruce as a defendant
and dismissed all claims against CCMH except
Strubbe’s claim of retaliation in violation of 31
U.S.C. § 3730(h). Doc. No. 29. CCMH filed the
current motion for summary judgement on August
16, 2017.
III.

SUMMARY JUDGMENT STANDARDS

Any party may move for summary judgment
regarding all or any part of the claims asserted in
a case. Fed. R. Civ. P. 56(a). Summary judgment is
appropriate when “the pleadings, depositions,
answers to interrogatories, and admissions on file,
2 CCMH argues that it was not aware of Strubbe’s
involvement in the qui tam action until the complaint was
unsealed.

33a
together with affidavits, if any, show that there is
no genuine issue of material fact and that the
moving party is entitled to a judgment as a matter
of law.” Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986).
A material fact is one that “‘might affect the
outcome of the suit under the governing law.’”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). Thus, “the substantive law will identify
which facts are material.” Id. Facts that are
“critical” under the substantive law are material,
while facts that are “irrelevant or unnecessary” are
not. Id.
An issue of material fact is genuine if it has a
real basis in the record, Hartnagel v. Norman, 953
F.2d 394, 395 (8th Cir. 1992) (citing Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S.
574, 586-87 (1986)), or when “‘a reasonable jury
could return a verdict for the nonmoving party’ on
the question.” Woods v. DaimlerChrysler Corp.,
409 F.3d 984, 990 (8th Cir. 2005) (quoting
Anderson, 477 U.S. at 248). Evidence that only
provides “some metaphysical doubt as to the
material facts,” Matsushita, 475 U.S. at 586, or
evidence that is “merely colorable” or “not
significantly probative,” Anderson, 477 U.S. at
249-50, does not make an issue of material fact
genuine.
As such, a genuine issue of material fact
requires “sufficient evidence supporting the
claimed factual dispute” so as to “require a jury or
judge to resolve the parties’ differing versions of
the truth at trial.” Anderson, 477 U.S. at 248-49.
The party moving for entry of summary judgment

34a
bears “the initial responsibility of informing the
court of the basis for its motion and identifying
those portions of the record which show a lack of a
genuine issue.” Hartnagel, 953 F.2d at 395 (citing
Celotex, 477 U.S. at 323). Once the moving party
has met this burden, the nonmoving party must go
beyond the pleadings and by depositions,
affidavits, or otherwise, designate specific facts
showing that there is a genuine issue for trial.
Mosley v. City of Northwoods, 415 F.3d 908, 910
(8th Cir. 2005). The nonmovant must show an
alleged issue of fact is genuine and material as it
relates to the substantive law. If a party fails to
make a sufficient showing of an essential element
of a claim or defense with respect to which that
party has the burden of proof, then the opposing
party is entitled to judgment as a matter of law.
Celotex, 477 U.S. at 322.
In determining if a genuine issue of material
fact is present, I must view the evidence in the
light most favorable to the nonmoving party.
Matsushita, 475 U.S. at 587-88. Further, I must
give the nonmoving party the benefit of all
reasonable inferences that can be drawn from the
facts. Id. However, “because we view the facts in
the light most favorable to the nonmoving party,
we do not weigh the evidence or attempt to
determine the credibility of the witnesses.”
Kammueller v. Loomis, Fargo & Co., 383 F.3d 779,
784 (8th Cir. 2004). Instead, “the court’s function
is to determine whether a dispute about a material

35a
fact is genuine.” Quick v. Donaldson Co., Inc., 90
F.3d 1372, 1376-77 (8th Cir. 1996). 3
IV.

DISCUSSION

The FCA protects employees from retaliation
for lawful acts the employee committed in
furtherance of a civil action against the employer
for making false claims. 31 U.S.C. § 3730(h);
Schuhardt v. Wash. Univ., 390 F.3d 563, 566 (8th
Cir. 2004). Under the statute, an employee is
entitled to all relief necessary to make that
employee whole if he or she is:
discharged, demoted, suspended, threatened,
harassed, or in any other manner discriminated
against in the terms and conditions of employment
because of lawful acts done by the employee,
contractor, or agent on behalf of the employee,
contractor, or agent or associated others in
furtherance of other efforts to stop 1 or more
violations of [the FCA].
31 U.S.C. § 3730(h).
When there is no direct evidence of retaliation,
CCMH argues that the court should apply the
3 Strubbe incorrectly cites outdated case law for the
proposition that summary judgment is disfavored in
employment law cases. Doc. No. 52-1 at 3-4. While this
sentiment was occasionally expressed by panels of the Eighth
Circuit Court of Appeals, and repeated by district courts, it
was laid to rest over six years ago in Torgerson v. City of
Rochester, 643 F.3d 1031, 1043 (8th Cir. 2011) (en banc)
(holding that there is no “discrimination case exception” to
the usual summary judgment standards and disavowing
“panel statements to the contrary”).

36a
McDonnell Douglas4 burden-shifting framework.
Doc. No. 46 at 4. Strubbe does not dispute the
application of this framework. The Eighth Circuit
has applied the McDonnell Douglas framework
when addressing other whistleblower statutes. See
Elkharwily v. May Holding Co., 823 F.3d 462, 470
(8th Cir. 2016) (assuming without deciding that the
framework applies to claims under the Emergency
Medical Treatment and Active Labor Act and the
Minnesota Whistleblower Act). In Townsend v.
Bayer Corp., 774 F. 3d 446 (8th Cir. 2014), the
Eighth Circuit declined to decide whether the entire
McDonnell Douglas framework applies to FCA
retaliation claims but agreed that evidence of
pretext, such as treating similarly situated
employees differently, was relevant to establishing
whether the employee’s protected activity was the
sole reason for the adverse employment action. Id. at
460 n.3. Other circuits have applied the McDonnell
Douglas framework to FCA retaliation claims. See
United States ex rel. Schweizer v. Océ N.V., 677 F.3d
1228, 1240 (D.C. Cir. 2012); Harrington v. Aggregate
Indus. Ne. Region, Inc., 668 F.3d 25, 31 (1st Cir.
2012); United States ex rel. King v. Solvay Pharm.,
Inc., 871 F.3d 318, 332 (5th Cir. 2017); Miller v.
Abbott Labs., 648 Fed. Appx. 555, 559 (6th Cir.
2016); Hutchins v. Wilentz, Goldman & Spitzer, 253
F.3d 176, 186 (3d. Cir. 2001) (applying the same
burden-shifting approach without identifying it as
the McDonnell Douglas framework).
In light of these authorities, and given the fact
that Strubbe does not argue otherwise, I will apply
the McDonnell Douglas framework here. Under that
4

McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973).

37a
framework, the plaintiff must first establish a prima
facie case of retaliation. Miller, 648 Fed. Appx. at
559. If the plaintiff establishes a prima facie case,
then the defendant may rebut the presumption of
retaliation by showing a legitimate, non-retaliatory
reason for the adverse employment action. Id. The
plaintiff must then show by a preponderance of the
evidence that the employer’s stated reason is merely
pretext. Id.
A. Prima Facie Case of Retaliation
To establish a prima facie case of retaliation
under the FCA, the plaintiff must prove “(1) the
plaintiff was engaged in conduct protected by the
FCA; (2) the plaintiff’s employer knew that the
plaintiff engaged in the protected activity; (3) the
employer retaliated against the plaintiff; and (4)
the retaliation was motivated solely by the
plaintiff’s protected activity.” United States ex rel.
Miller v. Weston Educ., Inc., 840 F.3d 494, 505 (8th
Cir. 2016) (quoting Schuhardt v. Wash. Univ., 390
F.3d 563 (8th Cir. 2004)).
1. Protected Activity
I have previously found that Strubbe’s filing of
the present action on April 28, 2015, was protected
activity for purposes of an FCA retaliation claim.
Doc. No. 29 at 22. However, the parties dispute
whether Strubbe’s alleged actions during 2014 –
speaking to CCMH’s board and to the Sheriff about
CCMH’s “financial wrongdoing” – also constituted
protected activity.
a. Parties’ Arguments

38a
CCMH argues that simply raising internal
concerns about the hospital’s finances, or discussing
those concerns with law enforcement, does not
constitute FCA protected activity. Doc. No. 46-1 at
5–6. CCMH contends that the concerns Strubbe
voiced were not raised to protect the government
against false or fraudulent claims and that she had
no reason to believe CCMH had made a false or
fraudulent claim to the government at that time. Id.
Strubbe argues that speaking to hospital board
members and the Sheriff about her concerns with
CCMH’s financial practices was similar to conduct
that other courts have found to constitute protected
activity. Doc. No. 52-1 at 6.
b. Analysis
To be classified as protected activity, an
employee’s conduct must have been both (1) in
furtherance of an FCA action and (2) “aimed at
matters which are calculated, or reasonably could
lead, to a viable FCA action.” Schuhardt, 390 F.3d
at 567. Employee conduct meets this second
requirement when the employee believes in good
faith, and a reasonable employee in the same or
similar circumstances might believe, that the
employer is potentially committing fraud against
the government. Id.
In general, protected activity should be interpreted
broadly. Collins v. Ctr. for Siouxland, No. C10-4015PAZ, 2011 WL 2893038 at *10 (N.D. Iowa, July 15,
2011). To be protected, the plaintiff does not
necessarily have to file an FCA lawsuit or “have
developed a winning claim at the time of the alleged
retaliation.” Schuhardt, 390 F.3d at 567 (quoting
United States ex rel. Karvelas v. Melrose-Wakefield

39a
Hosp., 360 F.3d 220, 236 (1st Cir. 2004)). On the other
hand, merely “grumbling to an employer about
regulatory violations or reporting wrongdoing to
supervisors” is not sufficient. Hutchins, 253 F.3d at
188; United States ex rel. Ray, 2015 WL 874824, at *6;
Mahony v. Universal Pediatric Servs., Inc., 753 F.
Supp. 2d 839, 847 (S.D. Iowa 2010) (merely reporting
wrongdoing to supervisors or refusing to falsify
records are not “sufficiently connected to exposing
fraud against the federal government” to constitute
protected activity).
There should be some evidence that the employee
complained in order to investigate or assist in the
FCA action. U.S. ex rel. Ray v. Am. Fuel Cell &
Coated Fabrics Co., No. 1:09-CV-01016, 2015 WL
874824, at *6 (W.D. Ark. Mar. 2, 2015). Expressing
concern about the employer’s non-compliance with
federal or state regulations is not enough. Hutchins,
253 F.3d at 187–88; Zahodnick v. Int’l Bus. Machs.
Corp., 135 F.3d 911, 914 (4th Cir. 1997) (“simply
reporting his concern of a mischarging to the
government to his supervisor does not suffice”).
Complaints about the employer’s behavior generally
should include some indication of their legal
significance with respect to fraud and the FCA. See
Ray, 2015 WL 874824, at *5; Hutchins, 253 F.3d at
186–87; Robertson v. Bell Helicopter Textron, Inc., 32
F.3d 948, 51 (5th 1994); McKenzie v. BellSouth
Telecomms., Inc., 219 F.3d 508, 516 (6th Cir. 2000).
The key focus is whether the employee alleged
fraud on the government. Ray, 2015 WL 874824, at
*6.
In Schuhardt, the court found for summary
judgment purposes that the plaintiff engaged in

40a
protected activity when she took patient records
home to confirm the existence of fraud. 390 F.3d at
567.
Doctors
at
Washington
University’s
Department of Surgery were allegedly changing
patient records to affect what they could bill to
Medicare. Id. at 565. The plaintiff told her supervisor
that such activity may be fraudulent and that a
government agency would forbid the practice if it
knew about the activity. Id.at 567–68. She also
complained to the University about the fraud
through its confidential hotline and copied the files
as evidence when nothing was done. Id. at 567.
Under those circumstances, the court found that the
first condition – that the action was in furtherance of
an FCA claim – was satisfied. Id.
In Mahony, the Southern District found that the
plaintiff engaged in protected activity by writing to
the employer a memo alleging FCA violations,
advising the employer of an intention to file an FCA
action, presenting evidence of the fraud to the FBI
and gathering evidence that showed another
employee had committed fraud. See Mahony, 753 F.
Supp. 2d at 847–48 (listing examples of other
circuits’ treatment of the “in furtherance of”
condition). By contrast, the Eighth Circuit found no
protected activity in Green v. City of St. Louis, Mo.,
507 F.3d 662 (8th Cir. 2007). Green worked for the
City’s Development Corporation, having been hired
to certify businesses owned by women and
minorities. Id. at 664. He protested the certification
process and was laid off. Id. at 665. The court stated
that Green had merely alerted his employer that its
certification system was flawed, such that its
reports were likely flawed and less reliable than

41a
reports generated by other systems. Id. at 668. He
did not allege that the flawed practice resulted in
any false statement to the government and none of
the evidence he presented described any false
claims. Id. Therefore, his complaints were not
considered protected activity. Id.
Here, the only alleged protected activity during
2014 involved Strubbe’s discussions with CCMH
board members and the Crawford County Sheriff
about CCMH’s finances. In her amended complaint,
Strubbe states that she “went to several CCMH
Board members, including, Carol Swanson, Virgie
Dieber-Henningsen, Greg Kuehl, and Kevin
Fineran.” Doc. No. 12 at 20. She spoke to them about
CCMH’s “financial situation” and her belief that
“the finances were not adding up” and asked them
why the public could not access the company’s and
the CEO’s credit card statements. Id. The board
addressed her concerns and announced an
investigation, though the board never followed
through with the investigation. Id. at 20. Strubbe
then met with the Crawford County Sheriff “about
her concerns with financial mishandling of CCMH
funds.” Id. at 21. Strubbe provides no additional
details as to what she told the board, or the Sheriff.
Doc. No. 52-4 at 4.
Strubbe argues that the facts of this case are on
point with those in Collins. Doc. No. 52-1 at 6. In
Collins, the court highlighted the fact that the
employee had warned her employer about possible
legal action by the government and made copies of
files she believed were evidence of the fraud. Collins,
2011 WL 2893038 at *11. She ultimately took the
files home and delivered the documents to

42a
government investigators. Id. Moreover, the
allegations the employee made to her employer were
far more specific than those Strubbe made here.
Strubbe merely brought concerns to the board about
“financial wrongdoing.” There is no indication that
she raised concerns about fraudulent statements to
the government or provided documentary evidence
to investigators. While she did have a discussion
with the Sheriff, there is no evidence that she
advised the Sheriff of any concerns that CCMH was
defrauding the government.
I find Strubbe’s actions during 2014 to be more
akin to those in Green. Strubbe simply voiced
concerns about general financial wrongdoing. Even
when viewing the facts in a light most favorable to
Strubbe, I find that her actions were not sufficiently
connected to an FCA action to qualify as protected
activity. However, because her filing of the qui tam
complaint in 2015 was protected activity, I will
address the other elements of the prima facie case.
2. CCMH’s Knowledge
Parties’ Arguments
CCMH argues that while Strubbe joined the
other Relators in filing a qui tam compliant on
April 28, 2015, it did not learn about that
complaint until November 9, 2015. Doc. No. 46-1.
CCMH states that there is no evidence on the
record to show it had any knowledge of Strubbe’s
involvement before November 9, 2015, meaning
any adverse action before that date is irrelevant.
Id.
Strubbe argues that CCMH’s behavior
“contemporaneous with or occurring at times” that

43a
events relating to the qui tam complaint took place
indicates CCMH’s knowledge. Doc. No. 52-1 at 7. She
argues that because the Relators’ attorney served
CCMH with an open records request and an attorney
for the government served interrogatories on
CCMH, the timing of the decision as to Strubbe’s
employment status in relation to those events
presents an inference of CCMH’s knowledge
sufficient to resist summary judgment. Id. at 7-9.
Analysis
The plaintiff must show that the employer had
either actual or constructive knowledge of the
employee’s protected activity to maintain a claim
for retaliation. Schuhardt, 390 F.3d at 568. What
the employer knows must essentially mirror the
activity in which the employee engaged to qualify
for FCA protection. Hutchins, 253 F.3d at 188. The
knowledge prong requires that the plaintiff prove
the employer was on notice of the “distinct
possibility” of FCA litigation. Id. at 188; McKenzie,
219 F.3d at 517–18. The employer is entitled to
treat suggestions for improvement as suggestions,
rather than as a precursor to litigation. Id. at 189.
An employer has sufficient notice of the possibility
of litigation when the employee acts in a way that
reveals his or her intent to report or assist the
government in pursuing an FCA violation. Id.
Whether the employer had knowledge of the
plaintiff’s protected activity is a question of fact.
Therefore, in order to establish a prima facie case,
Strubbe must present evidence permitting a finding
that CCMH knew she was involved in this qui tam
action at the time CCMH took adverse action
against her. As noted above, the Relators filed the

44a
action on April 28, 2015, but the complaint was not
unsealed until November.
Strubbe argues that CCMH knew of her
involvement before the complaint was unsealed in
November, pointing to the fact that on March 27,
2015, attorney Angela Campbell mailed an open
records request for financial documents to CCMH.
She also highlights the fact that CCMH retained
counsel for the records request on April 9, 2015, and
responded to the request in June 2015. While these
events clearly occurred, there is no evidence
permitting a finding that CCMH knew Strubbe had
any connection to them. Strubbe acknowledges that
CCMH did not learn about the qui tam complaint
until November 9, 2015. Doc. No. 52-2 at 3.
Strubbe’s workers’ compensation attorney states in
an affidavit that the hospital’s behavior toward
Strubbe changed “after the federal Qui Tam
complaint was unsealed and the hospital realized
that she was behind the complaints.” Doc. No. 52-4
at 10–11 [emphasis added]. None of the facts or
events Strubbe relies on come close to hinting at the
possibility that CCHM knew of Strubbe’s
involvement before November 9, 2015. As a matter
of law, any actions against Strubbe before that date
could not have been retaliatory. The question
remains whether the record suggests retaliatory
actions after that date.
3. Retaliation
An act of retaliation under the FCA includes
discharging, demoting, suspending, threatening,
harassing or otherwise discriminating against an
employee. 31 U.S.C. § 3730(h)(1). CCMH argues
that the only act of retaliation taken against

45a
Strubbe after November 9, 2015, was her
termination (or, more precisely, her removal from
casual part-time status) in March 2016. Strubbe
does not argue otherwise, instead relying on
actions that occurred prior to November 9, 2015.
Thus, I will address the question of whether a
genuine issue of material fact exists as to whether
CCMH’s removal of Strubbe from casual part-time
status was retaliatory.
4. Causation
Parties’ Arguments
CCMH argues that Strubbe’s removal from
casual part-time status was solely pursuant to
CCMH’s policy requiring that part-time employees
perform some work within six-month increments
and attend all mandatory in-service training
required “for the position.” Doc. No. 46-1 at 8.
Because Strubbe had not worked for six months as
of March 2016, she no longer met the requirements
for casual part-time status. Id. Therefore, she was
discharged and cannot show that retaliation was
the sole motivation for the adverse action. Id.
Strubbe contends that the only policy she
violated was “being too hurt to work,” not any
policy relating to bad conduct. Doc. No. 52-1 at 1112. She argues that the policy CCMH cites is
simply a policy for classifying employees, not one
that could present a reason for discharging them,
and that the timing of CCMH’s decision to fire her
shows causation. Id.
Analysis

46a
To establish a prima facie case of retaliation
under the FCA, the employee must show that the
employer’s decision to take adverse action was
solely motivated by the employee’s protected
activity. Elkharwily, 823 F.3d at 470; Norbeck v.
Basin Elec. Power Co-op., 215 F.3d 848, 851 (8th
Cir. 2000). 5 “Generally, more than a temporal
connection between the protected conduct and the
adverse employment action is required to present a
genuine factual issue on retaliation.” Kiel v. Select
Artificials, Inc., 169 F.3d 1131, 1136 (8th Cir.
1999) (en banc). However, temporal proximity is a
relevant factor and, for purposes of establishing a
prima facie case, may be sufficient by itself if the
proximity is “very close.” Clark County Sch. Dist. v.
Breeden, 532 U.S. 268, 273 (per curiam). Thus, in
Smith v. Allen Health Systems, Inc., 302 F.3d 827,
833 (8th Cir. 2002), the court held that a two-week
interval between the protective activity and the
adverse action was sufficient to allow an inference
of causation at the prima facie stage of the
retaliation analysis.
In O’Bryan v. KTIV Television, 64 F.3d 1188,
1190, 1194-95 (8th Cir. 1995), the court held that a
5 In Collins, another judge of this court determined that the
Eighth Circuit imposed the “sole motivation” requirement
erroneously in Norbeck v. Basin Electric Power Cooperative,
215 F.3d 848, 851 (8th Cir. 2000). Collins, 2011 WL 2893038
at *14. However, in various post-Norbeck cases the Eighth
Circuit has continued to state that “sole motivation” is the
applicable standard. See, e.g., Miller, 840 F.3d at 505;
Schuhardt, 390 F.3d at 566; Wilkins v. St. Louis Housing
Authority, 314 F.3d 927, 933 (8th Cir. 2002). If the “sole
motivation” requirement was imposed in error, it is for the
Court of Appeals, not this court, to correct the error.

47a
three-month interval was not too long to permit a
finding of causation when other acts of a seeminglyretaliatory nature occurred between the protected
conduct and discharge. However, in Kipp v. Missouri
Highway and Transp. Comm’n, 280 F.3d 893, 897
(8th Cir. 2002), the court overturned a verdict in
favor of the plaintiff and held that an interval of two
months “so dilutes any inference of causation that
we are constrained to hold as a matter of law that
the temporal connection could not justify a finding in
[plaintiff’s] favor on the matter of causal link.” In
Kipp, there appeared to be no evidence of other
retaliatory acts during the two-month interval. Id. at
896-97.
Here, Strubbe seeks to infer causation from the
fact that she was injured, was provided light work
for a time, and then was no longer provided light
work. In 2014, before CCMH knew of the qui tam
complaint, Strubbe injured her back and right
shoulder. Doc. No. 46-2 at 2; 52-2 at 1. She was
issued a work restriction against lifting and CCMH
assigned her to light duty work. Id. During the time
between her injury and CCMH’s discovery of the
complaint, she was offered temporary work
assignments that included removing staples,
scanning documents and performing other clerical
work in response to multiple lifting and motion
restrictions from her doctor and her continued
reports of pain. Doc. No. 46-2 at 2–4; Doc. No. 52-2
at 2.
On July 14, 2015, four months before learning
of the qui tam complaint, CCMH changed
Strubbe’s work status to part-time casual. Doc. No.
55 at 3–4. The letter informing her of the change

48a
stated that Strubbe’s status was changed due to
her inability to perform essential job functions. Id.
The letter also stated that she should keep her
uniform and badge for when she was able to return
to work and that CCMH looked forward to her
returning to work when her health status changed.
Id.
On July 23, 2015, Strubbe’s doctor issued
another lifting, pulling and pushing restriction,
which was extended on August 19, 2015. Doc. No.
46-2 at 4; Doc. No. 522 at 2. Strubbe ultimately
performed no work for CCMH after August 2015.6
Id. In March 2016, about four months after CCMH
learned of the qui tam complaint, Strubbe was
removed from casual part-time status, effectively
terminating her employment with CCMH.
Consistent with Kipp, I find that a four-month
interval “so dilutes any inference of causation” to
require a finding, as a matter of law, that temporal
proximity cannot support an inference of a
retaliatory motive. 280 F.3d at 897.
Apart from timing, Strubbe points to an email
message from CCMH to another injured employee,
Stacey Kruse, which thanked Kruse for being a “low
key” injured employee. Doc. No. 52-1 at 16; Doc. No.
52-2 at 14. This message was sent in June 2015 – five
months before CCMH knew of the qui tam complaint
– and makes no mention of Strubbe. Other than
sheer speculation, there is absolutely nothing to
6 In her amended complaint, Strubbe alleges that she had a
second surgery in January 2016 but was expected to make a
full recovery. Doc. No. 12 at 22. However, the summary
judgment record contains no records concerning that
surgery, or of any subsequent work restrictions.

49a
connect this email message to CCMH’s decision to
discharge Strubbe nine months later.
As a matter of law, Strubbe has failed to establish
a prima facie case of FCA retaliation because there
is no evidence from which the finder of fact could
conclude that CCMH’s decision to terminate her
employment in March 2016 was solely motivated
by its discovery of Strubbe’s involvement in the qui
tam complaint, four months earlier. Nonetheless, I
will proceed to analyze the remaining steps of the
McDonnell Douglas framework.
B. Legitimate Reason and Pretext
Parties’ Arguments
CCMH states that it had a legitimate,
nondiscriminatory reason for its discharge
decision, as Strubbe violated its policy
requirements for maintaining part-time status.
Doc. No. 46-1 at 8–9. CCMH further contends that
Strubbe is unable to establish that this reason is
pretextual. Id. at 9.
Strubbe contends that CCMH’s explanation is,
in fact, pretextual. She argues that no explanation
was given for her change in employment status in
July 2015, which occurred after CCMH responded
to the open records request in June 2015. Doc. No.
52-1 at 16. She also argues that under the
hospital’s policy, she only had to work one day in a
period of six months to maintain her status. Id.
She alleges that she was willing to work but
CCMH did not give her any work, thus showing
pretext. Id.
Analysis

50a
Once the plaintiff has established a prima facie
case for retaliation, under the McDonnell Douglas
framework the defendant may rebut the
presumption of retaliation by showing a legitimate,
non-retaliatory reason for the action and the
employee may in turn respond by showing pretext.
Miller, 648 Fed. Appx. at 559. As with causation,
“[m]ore than temporal proximity is required to
demonstrate the employer’s proffered reason for the
employment action was pretextual,” even if temporal
proximity established the prima facie case of
retaliation. Schoonover, 492 F. Supp. 2d at 1158;
Stoddard v. BE & K, Inc., 993 F. Supp. 2d 991, 1005
(S.D. Iowa 2014) (discussing pretext in a Title VII
sex discrimination context).
As I noted in a prior case, “[p]retext can be
demonstrated in several ways, including showing
‘that an employer (1) failed to follow its own policies,
(2) treated similarly-situated employees in a
disparate manner, or (3) shifted its explanation of the
employment decision.’” Peterson v. Martin Marietta
Materials, Inc., No. C14-3059-LTS, 2016 WL
2886376, at *8 (N.D. Iowa May 17, 2016) (citing
Schaffhauser v. United Parcel Serv., Inc., 794 F.3d
899, 904 (8th Cir. 2015), in turn quoting Lake v.
Yellow Transp., Inc., 596 F.3d 871, 874 (8th Cir.
2010)). With regard to following its own policies,
CCMH’s stated reason for discharge is based on a
2013 policy stating that “the minimum requirement
to remain a per diem employee is to have worked in
the past six months and to have attended all
mandatory in-service training required for the
position.” Doc. No. 46-2 at 80. As an initial matter,
the parties appear to disagree about what kind of

51a
work Strubbe had to perform in order to satisfy the
requirements of the work policy. She claims that
CCMH had to give her only one day of any kind of
light duty work within the six months for her to
maintain her status. Doc. No. 52 at 15. CCMH argues
that the policy requires the employee to have worked
in the position for which she was hired in order to
maintain her status. Doc. No. 55 at 4. This means
Strubbe would have had to work as an EMT-B within
the six months to maintain her status. Id.
The language of the policy is ambiguous with
respect to the kind of work that is required.
However, it is undisputed that Strubbe had not
worked in any capacity for six months by the time
she was discharged. Under either party’s
interpretation, Strubbe failed to meet the policy’s
requirements and, therefore, was subject to losing
her status. Strubbe has failed to show that CCMH
failed to follow its own policies concerning her
employment status.
Strubbe next argues that CCHM did not apply
its policy consistently. Doc. Nos. 52-2 at 2; 52 at 15–
16. She again points to fellow employee Kruse,
arguing that she was a similarly-situated employee
who was treated differently. Doc. Nos. 52-1 at 15; 524 at 11. Strubbe claims that Kruse was given light
work while Strubbe was not and, therefore, that
Kruse was not discharged.
The only evidence Strubbe cites to show that
CCMH treated Kruse differently is the affidavit by
Strubbe’s workers’ compensation attorney (Doc. No.
52-4 at 11–12) and the email to Kruse, which stated
that “[Brad Bonner] really does appreciate your
efforts and the fact you are his low key injured

52a
employee” and noted that Bonner would take this
into consideration when finding light duty work for
Kruse. Doc. No. 52-4 at 14. This information is far
from sufficient to demonstrate that Kruse was
similarly situated to Strubbe and was treated more
advantageously. See Schoonover, 492 F. Supp. 2d at
1137 (engaging in a detailed factual analysis to
determine whether an employee was similarly
situated); Mariani-Colon, 511 F.3d at 222 (requiring
the plaintiff to show that others were similarly
situated in all relevant respects). The record does
not disclose the type of injury Kruse suffered or the
restrictions placed on Kruse’s work activities. Nor
does the record reflect whether Kruse met the
policy’s work requirements. Strubbe has failed to
present sufficient information to show that Kruse
was similarly situated and was treated differently.
Similarly, Strubbe has failed to show that
CCMH provided shifting explanations for its
decisions or otherwise acted in a manner suggesting
pretext.
According
to
Strubbe’s
workers’
compensation attorney, CCMH told Strubbe in April
2015 that the hospital was committed to getting her
back to work. Doc. No. 52-4 at 10. In July 2015,
CCMH advised Strubbe that it had no additional
light duty work for her and removed her to part-time
status. Doc. No. 52-4 at 10. According to CCMH, the
length of Strubbe’s leave created a hardship for the
hospital. Doc. Nos. 46-3 at 74; 52-4 at 9. Of course,
and as noted above, this change of status occurred
months before CCMH became aware of the qui tam
complaint.
Finally, and while acknowledging that she was
not able to perform her regular job functions during

53a
this period of time, Strubbe states that she applied
for two open positions that were filled by less
experienced people. Doc. No. 52-4 at 5. She does not
indicate when these applications were made or
otherwise provide sufficient information to suggest
that CCMH’s selection of other applicants
demonstrates pretext.
In short, after viewing the record in a light most
favorable to Strubbe, I find no genuine issue of
material fact on the issue of whether CCMH’s
stated reason for discharge is pretextual. Even if
Strubbe could establish a prima facie case of
retaliation under the FCA, her claim would fail as
a matter of law.
V.

CONCLUSION

For the reasons set forth herein, defendant’s
motion (Doc. No. 46) for summary judgment is
granted. Because this order disposes of the only
remaining claim, judgment shall enter in favor of
the defendant and against the plaintiff. The Clerk
of Court shall close this case.
IT IS SO ORDERED.
DATED this 6th day of December, 2017.
/s/ Leonard T. Strand
Leonard T. Strand, Chief Judge

54a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF IOWA WESTERN
DIVISION
STEPHANIE STRUBBE,
Plaintiff,
vs.
CRAWFORD COUNTY MEMORIAL
HOSPITAL,
Defendant.
CASE NO. C17-4034-LTS
JUDGMENT
This matter came before the Court. The issues
have been decided and a decision has been
rendered.
IT IS ORDERED THAT:
Plaintiff
dismissed.

take

nothing

and

this

case

DATED: December 6, 2017 Robert L. Phelps
Clerk of Court, US District Court
Northern District of Iowa
S/src
By: Deputy Clerk

is

55a

IN THE UNITED STATES DISTRICT
COURT
FOR THE NORTHERN DISTRICT OF IOWA
WESTERN DIVISION
UNITED STATES OF AMERICA, ex
rel. Stephanie Strubbe, Carmen Trader
and Richard Christie, and Individually,
Plaintiffs,
vs.
CRAWFORD
COUNTY
MEMORIAL
HOSPITAL and BILL BRUCE, Individually,
Defendants.
No. C15-4034-LTS
ORDER ON DEFENDANTS’
MOTION TO DISMISS
VI.

INTRODUCTION

This case is before me on a motion (Doc. No. 23)
to dismiss filed by defendants Crawford County
Memorial Hospital (CCMH) and Bill Bruce.
Plaintiffs have filed a resistance (Doc. No. 26) and
defendants have filed a reply (Doc. No. 27). Having
considered these filings, I find that oral argument
is not necessary. See N.D. Ia. L.R. 7(c). The motion
is fully submitted and ready for decision.

56a
VII.

PROCEDURAL HISTORY

On April 28, 2015, plaintiffs and qui tam
relators Stephanie Strubbe, Carmen Trader and
Richard Christie (Relators) filed a qui tam
complaint (Doc. No. 1) under seal. On April 4, 2016,
the United States of America (United States)
declined intervention. Doc. No. 9. As such, the
complaint was unsealed and the Relators were
directed to effect service on defendants. Doc. No.
10. On June 6, 2016, the Relators filed an amended
complaint. Doc. No. 12.
On August 8, 2016, defendants filed a motion
(Doc. No. 23) to dismiss for failure to state a claim
upon which relief may be granted. The Relators
filed a resistance (Doc. No. 26) on August 29, 2016,
and defendants filed a reply (Doc. No. 27) on
September 8, 2016. The United States filed a
statement of interest (Doc. No. 28) on November 2,
2016.
VIII.

OVERVIEW OF THE CLAIMS

As set out in the amended complaint (Doc. No.
12), the Relators bring this qui tam suit on behalf
of the United States and allege that the defendants
(1) filed false claims to Medicare in violation of the
False Claims Act (FCA), 31 U.S.C. § 372(a), (2)
made false records or statements in order to make
fraudulent claims in violation of the FCA and (3)
retaliated against the relators following protected
activity. Under federal law, a relator who initiates
a meritorious qui tam suit receives a percentage

57a
of the ultimate damages award, plus attorney's
fees and costs. 31 U.S.C. § 3730(d).
CCMH is a county-owned, non-profit hospital
located in Crawford County, Iowa. Doc. No. 12 at
2. It is a critical access hospital (CAH) as defined
by Medicare. See 42 C.F.R. § 485. Bruce became
CCMH’s chief executive officer in April 2012. Id.
at 2. All of the Relators were employed at CCMH
during the relevant period of time. Doc. No. 12 at
4-5. Strubbe was employed as an emergency
medical technician (EMT) from March 4, 2014,
until March 7, 2016. Doc. No. 12 at 4. Christie was
employed as a paramedic from November 9, 2007,
until May 2015. Id. at 5. Trader is currently
employed as a paramedic and was hired on March
1, 2010. Id.
As a CAH, CCMH must meet certain
regulatory qualifications. Among other things,
CAHs participate in the state’s Medicare
program and are located in rural areas that are
not in close proximity to other health service
providers. CAHs must provide 24-hour emergency
services seven days a week. CAHs are paid for
most inpatient and outpatient services to Medicare
patients at 101% of reasonable costs.
The Relators allege that after Bruce was hired,
CCMH undertook a series of practices that resulted
in fraudulent billings to Medicare. Count I alleges
FCA violations for claims made to Medicare
regarding (1) breathing treatments administered by
paramedics, (2) EMT services for laboratory work,
(3) claims that listed false credentials of service
providers, (4) EMT and paramedic services provided

58a
to Eventide, L.L.C. (Eventide), and Denison Care
Center (Denison) and (5) cost reports that included
improper reimbursements and payments to vendors
that were not actual CCMH expenses. Doc. No. 12 at
18. Count II alleges FCA violations for presenting
false records or statements to Medicare for (1)
requiring employees to document each breathing
treatment as a 30 minute service, regardless of the
actual time, (2) listing paramedics as “specialized
ancillary staff” on time and medical records for
breathing treatments despite the fact that these
employees were not “specialized ancillary staff,” (3)
reimbursement requests, invoices and payments for
improper payments to vendors that were not for
CCMH business expenses, (4) documents listing
Jonathan Richard as a paramedic and both Relator
Strubbe and Heather Rasmussen as phlebotomists
and (5) cost reports submitted to Medicare listing
false costs. Id. at 19.
Count III alleges that the defendants conspired
with Eventide to violate the Anti-Kickback statute.
Id. at 19-20. Counts IV, V and VI allege retaliation
against each Relator based on protected conduct.
Id. at 20-30. The Relators seek treble damages on
behalf of the United States, civil penalties, awards
pursuant to 31 U.S.C. § 3730, attorney fees and
expenses and court costs. Id. at 31.
IX.

APPLICABLE STANDARDS
A. Motions to Dismiss Under Rule 12(b)(6)

The Federal Rules of Civil Procedure authorize
a pre-answer motion to dismiss for “failure to state
a claim upon which relief can be granted.” Fed. R.

59a
Civ. P. 12(b)(6). The Supreme Court has provided
the following guidance in considering whether a
pleading properly states a claim:
Under Federal Rule of Civil Procedure
8(a)(2), a pleading must contain a “short and
plain statement of the claim showing that
the pleader is entitled to relief.” As the
Court held in [Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 127 S. Ct. 1955, 167
L.Ed.2d 929 (2007)], the pleading standard
Rule 8 announces does not require “detailed
factual allegations,” but it demands more
than
an
unadorned,
the-defendantunlawfully-harmed-me accusation. Id., at
555, 127 S. Ct. 1955 (citing Papasan v.
Allain, 478 U.S. 265, 286, 106 S. Ct. 2932,
92 L.Ed.2d 209 (1986)). A pleading that
offers “labels and conclusions” or “a
formulaic recitation of the elements of a
cause of action will not do.” 550 U.S., at 555,
127 S. Ct. 1955. Nor does a complaint suffice
if it tenders “naked assertion[s]” devoid of
“further factual enhancement.” Id., at 557,
127 S. Ct. 1955.
To survive a motion to dismiss, a complaint
must contain sufficient factual matter,
accepted as true, to “state a claim to relief
that is plausible on its face.” Id., at 570, 127
S. Ct. 1955. A claim has facial plausibility
when the plaintiff pleads factual content that
allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged. Id., at 556, 127 S. Ct.
1955. The plausibility standard is not akin to

60a
a “probability requirement,” but it asks for
more than a sheer possibility that a
defendant has acted unlawfully. Ibid. Where
a complaint pleads facts that are “merely
consistent with” a defendant's liability, it
“stops short of the line between possibility
and plausibility of ‘entitlement to relief.’ ” Id.,
at 557, 127 S. Ct. 1955 (brackets omitted).
Ashcroft v. Iqbal, 556 U.S. 662, 677–78
(2009).
Courts assess “plausibility” by “‘draw[ing] on
[their own] judicial experience and common
sense.’” Whitney v. Guys, Inc., 700 F.3d 1118, 1128
(8th Cir. 2012) (quoting Iqbal, 556 U .S. at 679).
Also, courts “‘review the plausibility of the
plaintiff's claim as a whole, not the plausibility of
each individual allegation.’” Id. (quoting Zoltek
Corp. v. Structural Polymer Grp., 592 F.3d 893,
896 n. 4 (8th Cir. 2010)). While factual
“plausibility” is typically the focus of a Rule
12(b)(6) motion to dismiss, federal courts may
dismiss a claim that lacks a cognizable legal
theory. See, e.g., Somers v. Apple, Inc., 729 F.3d
953, 959 (9th Cir. 2013); Ball v. Famiglio, 726 F.3d
448, 469 (3d Cir. 2013); Commonwealth Prop.
Advocates, L.L.C. v. Mortg. Elec. Registration Sys.,
Inc., 680 F.3d 1194, 1202 (10th Cir. 2011); accord
Target Training Intern., Ltd. v. Lee, 1 F.Supp.3d
927 (N.D. Iowa 2014). “The well-pleaded facts
alleged in the complaint, not the legal theories of
recovery or legal conclusions identified therein,
must be viewed to determine whether the pleading
party provided the necessary notice and thereby
stated a claim in the manner contemplated by the

61a
federal rules.” Topichian v. JPMorgan Chase
Bank, N.A., 760 F.3d 843, 848 (8th Cir. 2014)
(quoting Parkhill v. Minn. Mut. Life Ins. Co., 286
F.3d 1051, 1057–58 (8th Cir. 2002)).
In deciding a motion brought pursuant to Rule
12(b)(6), the court may consider certain materials
outside the pleadings, including (a) “the materials
that are ‘necessarily embraced by the pleadings
and exhibits attached to the complaint,’” Whitney,
700 F.3d at 1128 (quoting Mattes v. ABC Plastics,
Inc., 323 F.3d 695, 697 n. 4 (8th Cir. 2003)), and (b)
“‘materials that are part of the public record or do
not contradict the complaint.’” Miller v. Redwood
Toxicology Lab., Inc., 688 F.3d 928, 931 (8th Cir.
2012) (quoting Porous Media Corp. v. Pall Corp.,
186 F.3d 1077, 1079 (8th Cir. 1999). Thus, the
court may “consider ‘matters incorporated by
reference or integral to the claim, items subject to
judicial notice, matters of public record, orders,
items appearing in the record of the case, and
exhibits attached to the complaint whose
authenticity is unquestioned;’ without converting
the motion into one for summary judgment.”
Miller, 688 F.3d at 931 n. 3 (quoting 5B Charles
Alan Wright & Arthur R. Miller, Federal Practice
and Procedure § 1357 (3d ed. 2004)).
B. Motions to Dismiss Under Rule 9(b):
Heightened Pleading Standard
Under Federal Rule of Civil procedure 9(b),
when alleging fraud or mistake, “a party must
state with particularity the circumstances
constituting fraud or mistake. Malice, intent,
knowledge, and other conditions of a person’s mind
may be alleged generally.” Fed. R. Civ. P. 9(b).

62a
“Rule 9(b)'s ‘particularity requirement demands a
higher degree of notice than that required for other
claims,’ and ‘is intended to enable the defendant to
respond specifically and quickly to the potentially
damaging allegations.’” United States ex rel. Joshi
v. St. Luke's Hosp., Inc., 441 F.3d 552, 556 (8th Cir.
2006) (quoting United States ex rel. Costner v.
URS Consultants, Inc., 317 F.3d 883, 888 (8th Cir.
2003) (in turn citing Abels v. Farmers
Commodities Corp., 259 F.3d 910, 920–21 (8th Cir.
2001)). “In other words, ‘the complaint must
identify the who, what, where, when, and how of
the alleged fraud.’” Olson v. Fairview Health
Services of Minnesota, 831 F.3d 1063, 1070 (8th
Cir. 2016) (quoting Joshi, 441 F.3d at 556). Under
Rule 9(b), “malice, intent, knowledge, and other
conditions of a person's mind may be alleged
generally.” E-Shops Corp. v. U. S. Bank Nat. Ass’n,
678 F.3d 659, 663 (8th Cir. 2012).
When allegations are “based only on
information and belief, the complaint must set
forth the source of the information and the reasons
for the belief.” Parnes v. Gateway 2000, Inc., 122
F.3d 539, 550 (8th Cir. 1997); see also Drobnak v.
Andersen Corp., 561 F.3d 778, 784 (8th Cir. 2009)
(finding Rule 9(b) is satisfied if “allegations are
accompanied by a statement of facts on which the
belief is founded.”). However, “allegations of fraud
regarding matters peculiarly within the opposing
party's knowledge could be based on information
and belief, so long as accompanied by a statement
of the facts on which the belief was founded.”
Florida State Bd. of Admin. v. Green Tree

63a
Financial Corp., 270 F.3d 645, 668 (8th Cir. 2001)
(citations omitted).
X.

DISCUSSION

Defendants argue that the amended complaint
lacks the plausibility required by Rule 8(a) and the
particularity demanded by Rule 9(b). Relators
contend that they have met all applicable pleading
requirements.

A. Applicable
Standards

Substantive

Law

The FCA imposes liability on those who
knowingly “present false claims, or cause false
claims to be presented, to the government for
payment or approval; [knowingly] use false
statements, or cause false statements to be used, to
get a false claim paid or approved by the
government; or conspire to defraud the government,
among other things.” United States ex rel. Thayer v.
Planned Parenthood of the Heartland, 765 F.3d 914,
916 (8th Cir. 2014) (quoting United States ex rel.
Raynor v. Nat'l Rural Utils. Coop. Fin., Corp., 690
F.3d 951, 955 (8th Cir. 2012) (in turn citing 31 U.S.C.
§ 3729(a)(1)(3)). Under the FCA, private individuals
are permitted “to bring a civil action in the name of
the United States against those who violate the
[FCA]'s provisions.” Id. (quoting In re Baycol Prod.
Litig., 732 F.3d 869, 874 (8th Cir. 2013)). “Liability
under the FCA attaches ‘not to the underlying
fraudulent activity, but to the claim for payment.’”
Id. (quoting Baycol Prod. Litig., 732 F.3d at 875) (in
turn quoting Costner v. URS Consultants, Inc., 153
F.3d 667, 677 (8th Cir. 1998)).

64a
“Because the FCA is an anti-fraud statute,
complaints alleging violations of the FCA must
comply with Rule 9(b).” Joshi, 441 F.3d at 556.
“Under Rule 9(b), ‘the circumstances constituting
fraud ... shall be stated with particularity.’” Id.
“This particularity requirement demands a higher
degree of notice than that required for other
claims.” Thayer, 765 F.3d at 916 (quoting United
States ex rel. Costner v. United States, 317 F.3d
883, 888 (8th Cir. 2003)).B.
The
Amended
Complaint
The amended complaint alleges violations of the
FCA with regard to filing false claims pertaining to
(1) breathing treatments, (2) classification of
employees, (3) blood draws for nursing homes, (4)
hospital expenditures and (5) employment actions.
As set forth above, I must assume that all factual
allegations set forth in the amended complaint are
true for purposes of considering defendants’ motion
to dismiss.
1. Breathing treatments
Relators contend that starting in November
2014, paramedics “were required on nights and
weekends to perform breathing treatments for
inpatients of CCMH whenever a respiratory
therapist was not onsite.” Doc. No. 12 at 5, ¶ 27.
CCMH employees were told that this change was for
“billing” and “cost reimbursement” purposes. Id.
Previously, these treatments were administered by
nursing staff at CCMH. Id., ¶ 26. Paramedics did
not receive additional training to perform these
treatments and are not as qualified to do so. Id., ¶¶
28-29. They were told that they were to document

65a
each treatment as 30 minutes, regardless of the time
the actual treatment took. Id., ¶ 30.
The complaint alleges, upon information and
belief, that if nurses continued to provide these
treatments, they would be “included in the bills
already submitted to Medicare.” Id. at 6, ¶ 32.
However, if the treatments are performed by
paramedics, then “CCMH is able to additionally
and improperly bill for the paramedics’ services for
the treatment.” Id. Relators also allege, on
information and belief, that “patients are receiving
breathing treatments who do not require such
treatments.” Id. at 7, ¶ 37. They allege, as an
example, that “Patient A, known to Relator Trader,
was ordered to receive breathing treatments
despite having been in a traumatic, clearly
terminal, accident.” Id. Relators contend that
because of these practices, “a higher percentage of
the patient population has been receiving the
breathing treatments.” Id at 6, ¶ 33. They allege
that in December 2014, despite fewer patient
admissions, “CCMH saw a 77% increase in the
number of patients who received breathing
treatment as compared to December of 2013.” Id.,
¶¶ 33-35.
Relators also allege that CCMH “treats all ‘nonnurse’ staff, such as paramedics, as ‘specialized
staff’ claiming that makes respiratory therapy
services provided by them ‘separate billable
ancillary services under the inpatient hospital
benefit’ when they otherwise wouldn’t be
separately billable.” Id., ¶ 40. They further contend
that “CCMH has been billing respiratory therapist
services provided to inpatients as separately

66a
billable ancillary services under the inpatient
hospital benefit,” which is disallowed by Medicare.
Id., ¶¶ 41-43.
2.

Pulmonary services

The Amended Complaint also alleges Medicare
fraud concerning pulmonary
services.
Relators allege that under
most circumstances, pulmonary rehabilitation
services are billable to Medicare only if provided on
an outpatient basis. Id., at 8 ¶ 50. They contend
that CCMH has required paramedics to document
each outpatient pulmonary rehabilitation service
as 30 minutes, regardless of the actual treatment
time. Id. at 9, ¶ 51. They also allege that
“paramedics do not meet the rules of being
properly trained staff to bill separate outpatient
pulmonary rehabilitation services as ancillary
staff, even if these services were being done on an
outpatient basis.” Id., ¶ 52.
Additionally, Relators allege that beginning in
July 2014, paramedics and EMTs were required to
perform laboratory work, including drawing blood
from patients. Id. Relators allege upon information
and belief that if the laboratory employees of
CCMH performed the blood draws, rather than the
EMTs or paramedics, only Medicare part A would
be billed as part of a bundled service.” Id., ¶ 56. By
contrast, “[i]f the EMTs or paramedics perform the
blood draws, then Medicare is billed for added
services in addition to the bundled service for
which the patient has already been billed.” Id.
Relators allege, upon information and belief, that
CCMH requires EMTs and paramedics to perform

67a
these services “so that CCMH can submit
additional, unnecessary and improper bills to
Medicare that CCMH would not be able to submit
if the blood draws were performed by nurses or
laboratory personnel at CCMH.” Id., ¶ 57.
3. Employee misclassification
Relators allege FCA violations based on the
misclassification of employees in the emergency
medicine department, creating the impression that
“the employees providing the services are more
qualified than their qualifications and licensing
suggest.” Id. at 10, ¶ 58. As an example, they allege
that Jonathan Richard was employed by CCMH as
a paramedic and he performed all services
provided by paramedics despite the fact that he
was not licensed in the State of Iowa as a
paramedic. Id., ¶ 59. Relators allege, on
information and belief, that some of Richards’
services were billed to Medicare. Id. They allege
that on January 29, 2015, Relators Christie and
Trader reported this information to the Iowa
Department of Public Health (DPH). Id., ¶ 60.
Relators allege that another employee Zachary
Rasmussen, “was listed as a ‘phlebotomist’ on
schedules and internal CCMH paperwork.” Id., ¶
61. They contend that “Rasmussen is not an EMT,
nor a paramedic, and upon information and belief,
has not been trained in phlebotomy.” Id. They
further allege, on information and belief, that
“CCMH bills Rasmussen as a phlebotomist,
despite not being a certified phlebotomist.” Id., ¶
62. Relators further allege, on information and
belief, that CCMH bills Medicare for Relator

68a
Strubbe’s blood draws despite the fact that she is
not a certified phlebotomist. Id. at 10-11, ¶ 63.
Finally, Relators allege that CCMH has
defrauded Medicare by sending EMTs and
paramedics to Eventide, a care center, and
Denison Care Center, a nursing home, to draw
blood for patients at those facilities, despite the
fact that those facilities employ staff that are
capable of performing that service. Id. at 11, ¶¶ 6465. Relators allege, on information and belief, that
these arrangements allow CCMH to submit
improper bills to Medicare. Id.
4. Other Alleged Practices
Relators allege that after Bruce was hired, a
policy change was made to require EMT or
paramedic staff to be present in the emergency
room during shifts. Id., ¶ 66. They contend, on
information and belief, “that this change in policy
was solely to allow for increased billings to
Medicare.” Id., at 11.
Relators also allege that “as CCMH was
increasing its number of breathing treatments,
and increasing its number of blood draws, CCMH
was also paying its doctors by “RVUs,” which
include a mathematical calculation of services
provided to determine physician pay structure.”
Id., ¶ 67. They contend, upon information and
belief, that “this method of calculation of pay
resulted in increased pay to the physicians
providing services to CCMH.” Id. They also allege,
on information and belief, that CCMH has engaged
in certain practices to overstate its actual costs in
reports submitted to Medicare, and/or included

69a
items that were not legitimate hospital expenses.
Id. at 12-13, ¶¶ 6876.
C. Analysis
1. Counts I and II
As noted above, Count I alleges FCA violations
based on false claims made to Medicare, while
Count II alleges FCA violations based on the
presentation of false records or statements to
Medicare. Defendants argue that the Relators
have failed to meet Rule 9(b)’s heightened pleading
standard by failing allege the “who, what, where,
when and how,” of the alleged fraudulent claims.
Defendants further argue that even if Relators
have satisfied this requirement, they have failed to
allege information as to (a) whether false claims
were actually submitted and (b) how the Relators
acquired knowledge of those claims. Relators
argue that both counts have been properly pled
with sufficient particularity.
The Eighth Circuit requires persons bringing
claims under the FCA to provide specific
information regarding the fraudulent billing
scheme. See United States ex. rel. Joshi v. St.
Luke’s Hospital, Inc., 441 F.3d 552, 556-57 (8th
Cir. 2006). A limited exception exists if the person
bringing the claim has intimate knowledge of the
billing scheme. See Thayer, 765 F.3d at 917-18.
Relators allege that they have met this standard.
In Thayer, the court distinguished Joshi as
follows, “unlike Dr. Joshi, who had no direct
connection to the hospital’s billing or claims
department and could only speculate that false
claims were submitted, Thayer was the center

70a
manager for two of Planned Parenthood's clinics,
oversaw Planned Parenthood's billing and claims
systems, and was able to plead personal, first-hand
knowledge of Planned Parenthood's submission of
false claims.” 765 F.3d at 917. The court held that
“a relator can satisfy Rule 9(b) by ‘alleging
particular details of a scheme to submit false
claims paired with reliable indicia that lead to a
strong inference that claims were actually
submitted.’” Id. (quotation and collected cases
omitted).
Here, no Relator alleges a direct connection to
CCMH’s billing procedures. Instead, they base
their allegation that various claims were billed and
submitted fraudulently upon information and
belief. Although Relators are correct that not all
qui tam actions require detailed recitations of
every fraudulent claim submitted, they have failed
to allege facts giving rise to a strong inference that
false claims were actually submitted. Their
complaint is more akin to the one dismissed in
Joshi.
Joshi was a qui tam action filed by an
anesthesiologist who alleged that the defendant
hospital and its chief of anesthesiology
systematically violated the FCA in (a) seeking
Medicare reimbursements at higher rates than
those to which they were entitled and (b)
submitting claims for services and supplies they
did not provide. Joshi, 441 F.3d at 554. Joshi
alleged that he was an original source with direct
and independent knowledge of the information
underlying his claims. Id. The Eighth Circuit
found that the complaint did not allege

71a
“specifically the date, amount, or content of, or the
persons involved in making, any false claims
submitted by St. Luke's” or “the dates on which
supplies or prescriptions were used or billed, the
patients who
received the
supplies or
prescriptions, or the type of supplies or
prescriptions involved in the alleged fraudulent
scheme.” Id. Instead, Joshi’s complaint alleged
that all of the work done during this time period
was fraudulent. Id. In finding that the compliant
lacked the requisite particularity necessary under
Rule 9(b), the court stated:
Absent from the complaint are any mention
of (1) the particular CRNAs who allegedly
performed patient care and administered
anesthesia services unsupervised, (2) when
Dr. Bashiti falsely claimed to have
supervised or directed CRNAs, (3) who was
involved in the fraudulent billing aspect of
the conspiracy, (4) what services were
provided and to which patients the services
were provided, (5) what the content was of
the fraudulent claims, (6) what supplies or
prescriptions were fraudulently billed and
to which patients the supplies or
prescriptions were provided, (7) what dates
the defendants allegedly submitted the false
claims to the government, (8) what monies
were fraudulently obtained as a result of
any transaction, or (9) how Dr. Joshi, an
anesthesiologist, learned of the alleged
fraudulent claims and their submission for
payment. Simply put, the complaint fails to

72a
identify specifically the “who, what, where,
when, and how” of the alleged fraud.
Id. at 556. The court held that even assuming
the complaint alleged that every instance of billing
was fraudulent, “Rule 9(b) requires more than
such conclusory and generalized allegations.” Id.
(citing Schaller Tel. Co. v. Golden Sky Sys., Inc.,
298 F.3d 736, 746 (8th Cir. 2002)).
As I will explain below, I find the Joshi analysis
to be dispositive here. Like Dr. Joshi, Relators
have not alleged sufficient, specific factual
information as to the “who, what, where, when,
and how” of the alleged fraud, nor as to how they
learned of such information.
a. Breathing treatments
In Count I, Relators allege FCA violations
relating to the submission of claims for breathing
treatments. They contend that prior to Bruce’s
hiring, these treatments were administered by
nursing staff and included in the “bundled”
services that were billed to Medicare. Relators
allege that because the personnel who
administered the breathing treatment changed,
this resulted in improper and additional billings to
Medicare. They contend that all bills for breathing
treatment submitted in this manner violated the
FCA, but do not allege intimate knowledge of
CCMH’s billing process or personal knowledge of
any bills actually submitted. While they note that
their allegations do not address a timeframe as
lengthy as that in Joshi, they nonetheless fail to
allege information as to how they know that any
allegedly-false claims were actually submitted. See

73a
Thayer, 765 F.3d at 918 (“Liability under the FCA
attaches ‘not to the underlying fraudulent activity,
but to the claim for payment.’”) (quoting Baycol
Prod. Litig., 732 F.3d at 875) (in turn quoting
Costner v. URS Consultants, Inc., 153 F.3d 667,
677 (8th Cir. 1998)).
At most, Relators allege that breathing
treatment services should have been bundled but
were not, and that this alleged practice violates
Medicare’s rules and regulations. They assert,
upon information and belief, that if these services
were provided by nurses, then they would be
included in bundled services. Doc. No. 12 at 6, ¶ 32.
They additionally claim, upon information and
belief, that CCMH has ordered more breathing
treatments per patient and that more patients
have been ordered to receive those treatments. Id.
at 6-7, ¶¶ 35-36. Other than a statistical
comparison, however, Relators have failed to
allege facts indicating that any breathing
treatments were improperly ordered or that the
alleged practice actually violates Medicare’s rules.
Moreover, even if the alleged practice does violate
Medicare, Relators did not allege facts sufficient to
show that billings arising from the alleged practice
were actually submitted for payment.While the
amended complaint includes general allegations as
to the alleged billing schemes, it does not set forth
the “‘who, what, where, when, and how’ of the
alleged fraud.” See Joshi, 441 F.3d at 556 (quoting
contractor United States ex rel. Costner v. United
States, 317 F.3d 883, 888 (8th Cir. 2003)) (in turn
citing Parnes v. Gateway 2000, Inc., 122 F.3d 539,
550 (8th Cir. 1997)). As an example, Relators cite

74a
to paragraph 75 of the amended complaint, which
states, “[u]pon information and belief, these
expenditures, as well as other expenditures, were
made by CCMH for expenses which are not
actually hospital expenses, or which are improper
hospital expenses, but yet were included in cost
reports submitted to Medicare.” Doc. No. 12 at 13.
This is a mere conclusory and generalized
allegation, similar to those in Joshi, with no indicia
that these expenses were actually billed and that
funds were fraudulently obtained as a result, and
with no information as to how Relators acquired
this knowledge. See Joshi, 441 F.3d at 557 (citing
Corsello v. Lincare, Inc., 428 F.3d 1008, 1011 (11th
Cir. 2005)).
Relators also argue that the amended
complaint is sufficient because they allege that
management told staff to document breathing
treatments as 30 minutes regardless of actual
duration and that they were told by their
supervisor, Musgrave, that this was being done for
cost reimbursement purposes. They contend that
the amended complaint alleges Medicare as the
entity subject to fraud and that the cost reports
submitted to Medicare resulted in fraudulently
obtained funds. Nonetheless, they failed to allege
facts indicating that any claims were actually
submitted and that any money that was obtained
as a result of those claims.
“If it alleges a systematic practice of submitting
fraudulent claims, the FCA complaint ‘must
provide some representative examples of [the]
alleged fraudulent conduct,’ specifying ‘the time,
place, and content of the defendant's false

75a
representations, as well as the details of the
defendant's fraudulent acts, including when the
acts occurred, who engaged in them, and what was
obtained as a result.’” United States ex rel. Roop v.
Hypoguard USA, Inc., 559 F.3d 818, 822 (8th Cir.
2009) (quoting Joshi, 441 F.3d at 556–57; accord
United States ex rel. SNAPP, Inc. v. Ford Motor
Co., 532 F.3d 496, 506 (6th Cir. 2008)). Here,
Relators failed to present representative examples.
Their general allegation that certain practices are
employed for “cost reimbursement” and “billing
purposes” does not give rise to a plausible inference
that any false claims were actually submitted to
Medicare. Thus, Relators have not satisfied Rule
9(b). See United States ex rel. Dunn v. N. Mem'l
Health Care, 739 F.3d 417, 420 (8th Cir. 2014)
(finding Relator’s complaint insufficient because it
failed to “identify even one example of an actual
false claim submitted . . . for reimbursement.”).
Finally, Relators argue that they may base
allegations on information and belief if certain
aspects of the alleged fraud are outside their
knowledge and control, citing Tuchman v. DSC
Communications Corp., 14 F.3d 1064, 1068 (5th
Cir. 1994). However, when allegations are “based
only on information and belief, the complaint must
set forth the source of the information and the
reasons for the belief.” Goughnour v. REM
Minnesota, Inc., No. CIV. 06-1601 PAM/RLE, 2007
WL 4179354, at *2 (D. Minn. Nov. 20, 2007)
(quoting Parnes v. Gateway 2000, Inc., 122 F.3d
539, 550 (8th Cir. 1997). Relators have not met this
requirement. Defendants’ motion to dismiss will be

76a
granted with regard to allegedly false claims
concerning breathing treatments.
b. Laboratory Work
Relators allege that claims relating to services
provided by paramedics and EMTs for laboratory
work violated Medicare’s bundling rules. They
contend that pulmonary rehabilitation services
can be billed separately from bundled services only
if those services are performed on an outpatient
basis. They further allege that CCMH requires
paramedics to perform these services and to
document each session as taking 30 minutes,
regardless of actual time. Finally, they assert that
paramedics are not properly trained to allow
CCMH to bill their services as ancillary staff, even
if the services are actually performed on an
outpatient basis. After making these allegations,
Relators allege upon information and belief that
these changes were done to improperly and
fraudulently bill Medicare. Doc. No. 12 at 9-10, ¶
57. Again, however, the amended complaint does
not set forth the “who, what, where, when, and
how” of the alleged fraud. Nor does it allege facts
sufficient to show (a) that false claims were
actually submitted and paid and (b) how the
Relators acquired such information. Defendants’
motion to dismiss will be granted with regard to
allegedly false claims concerning laboratory work.
Misclassification of Employees
Relators allege that CCMH billed for services
performed by personnel without the proper
credentials, resulting in fraudulent payments from
Medicare. They assert that Jonathan Richard was

77a
given the title of paramedic despite his lack of
training and performed all services performed by
paramedics. They contend, upon information and
belief, that services performed by Richard were
submitted to Medicare as if he were a paramedic.
They also allege, upon information and belief, that
CCMH has billed for services performed by Relator
Strubbe and employee Zachary Rasmussen as if
they were trained and certified phlebotomists,
despite the fact that they are not. Doc. No. 12 at
10-11, ¶¶ 59-63.
Again, these allegations are insufficient. They
do not set forth the “who, what, where, when, and
how” of the alleged fraud. Nor do they set forth
facts sufficient to show (a) that false claims were
actually submitted and paid and (b) how the
Relators acquired such information. Defendants’
motion to dismiss will be granted with regard to
allegedly false claims arising from the
classification of employees.
Care Center Billing
Relators allege that CCMH sends employees to
Eventide and Denison to perform certain services
for the residents of the facilities that could have
been performed by staff at those facilities and,
thus, included each facility’s “bundled services.”
They contend, upon information and belief, that
this practice is employed to allow CCMH to bill
Medicare for the services as if the recipients of the
services were outpatients of CCMH. Doc. No. 12 at
11, ¶¶ 64-65. For the same reasons discussed above
concerning other allegedly-false claims, these
generalized and conclusory allegations fall far
short of meeting Rule 9(b)’s heightened pleading

78a
requirements. Defendants’ motion to dismiss will
be granted with regard to allegedly false claims
arising from services performed at care centers.
e. Improper expenses
Relators allege that after hiring Bruce, CCMH
has reported various false or fraudulent expenses
and contend, upon information and belief, that this
has been done for the purpose of increasing
CCMH’s Medicare reimbursements. Doc. No. 12 at
1213, ¶¶ 68-76. As an example, they describe a
specific credit card expenditure and suggest that
the circumstances are contrary to what would be
“normal business practice.” Id. at 12, ¶¶ 70-72.
Instead, they contend, upon information and
belief, that the expense was not incurred for the
stated purpose. Id. ¶ 73.
As with their other theories of Medicare fraud,
Relators’ allegations as to improper expenses do
not satisfy Rule 9(b). They allege no facts
indicating that the defendants actually submitted
false information to Medicare in an effort to receive
improper payments, or that any such payments
were actually received. Nor do Relators allege facts
indicating the manner in which they learned of
such allegedly-false submissions. Defendants’
motion to dismiss will be granted with regard to
allegedly false claims arising from the reporting of
improper expenses.
f. Summary
Counts I and II are based largely on conjecture,
speculation and, it seems, gossip. While making
serious allegations that the defendants have
defrauded Medicare, the material allegations are

79a
founded upon information and belief, with no
indication of the source of the information or the
basis for the belief. Counts I and II must be
dismissed for failure to state a claim upon which
relief may be granted.
2. Count III: The Conspiracy Claim
Count 3 alleges that the defendants and
Eventide have conspired to violate the AntiKickback Statute and asserts that “[b]y virtue of
the false or fraudulent claims submitted, paid, or
approved as a result of Defendant’s [sic] conspiracy
to defraud the Government, the United States has
suffered substantial monetary damages.” Doc. No.
12 at 19-20, ¶¶ 100-02. Defendants argue that the
Relators have failed to allege the facts necessary to
support a conspiracy claim. Specifically,
Defendants argue that the Relators did not allege
with particularity (1) the existence of an unlawful
agreement among the alleged conspirators to have
a false or fraudulent claim allowed or paid and (2)
at least one act performed in furtherance of the
agreement.
Rule 9(b)’s particularity requirements apply to
allegations of a conspiracy to violate 31 U.S.C. §
3729(a). See, e.g., United States ex rel. Ellis v. City
of Minneapolis, No. 11–cv–00416, 2014 WL
3928524, at *15 (D. Minn. July 24, 2014) (citing
United States ex rel. Grubbs v. Kanneganti, 565
F.3d 180, 193 (5th Cir. 2009)). Here, Relators have
failed to provide the “who, what, where, when,
how” required by Rule 9(b). The amended
complaint alleges no specific facts indicating that
the defendants and Eventide entered into an
agreement to defraud the United States. Among

80a
other deficiencies, it provides no details about (1)
who entered into the alleged agreement on behalf
of Eventide, (2) when and how the alleged
agreement was formed and executed or (3) the
terms of the alleged agreement. Nor have Relators
alleged facts indicating the source of their
knowledge concerning the alleged agreement.
Thus, they have failed to set forth facts sufficient
to give rise to a plausible conspiracy claim.
Defendants’ motion to dismiss will be granted with
regard to Count III.
3. Count IV, V and VI: Retaliation
The FCA prohibits retaliatory action against
persons who engage in action in furtherance of a
claim under the FCA. 31 U.S.C. § 3170(h). The
elements of an FCA retaliation claim are:
(1) the plaintiff was engaged in conduct
protected by the FCA; (2) the plaintiff's employer
knew that the plaintiff engaged in the protected
activity; (3) the employer retaliated against the
plaintiff; and (4) the retaliation was motivated
solely by the plaintiff's protected activity.
Schuhardt v. Washington Univ., 390 F.3d 563,
566 (8th Cir. 2004). An employee’s actions are
protected by the FCA if two conditions apply: (1)
they were “in furtherance of and FCA action” and
(2) they were “aimed at matters which are
calculated, or reasonably could lead, to a viable
FCA action.” Id. at 567 (citing United States ex rel.
Hopper v. Anton, 91 F.3d 1261, 1269 (9th Cir.
1996)). The second condition is satisfied if “(1) the
employee in good faith believes, and (2) a
reasonable employee in the same or similar

81a
circumstances might believe, that the employer is
possibly
committing
fraud
against
the
government.” Id. (quoting Wilkins v. St. Louis
Hous. Auth., 314 F.3d 927, 933 (8th Cir. 2002)
(quoting in turn Moore v. Cal. Inst. Tech Jet
Propulsion Lab, 275 F.3d 838, 845 (9th Cir. 2002))).
Defendants argue that the Relators have failed
to allege that they engaged in protected activities
aimed at matters that were calculated to lead, or
reasonably could have led, to a viable FCA action.
Instead, defendants contend that Relators allege,
at most, that they were investigating financial
matters, a characterization that is not synonymous
with an action under the FCA. Additionally
defendants argue that the amended complaint

fails because Relators do not allege that the
retaliatory conduct was motivated “solely” by
their protected activity.
a. Count IV – Strubbe

Strubbe’s allegations in support
retaliation claim include the following:

of

her

Strubbe “started participating in a protected
activity in July of 2014, which included reviewing
Board packets and questioning whether something
was not right with the finances.” She “went to
several CCMH Board members, including, Carol
Swanson, Virgie Dieber-Henningsen, Greg Kuehl,
and Kevin Fineran, and spoke to all Board
members about the financial situation of CCMH,
her belief that the finances were not adding up,
asked why the public could not get CCMH and
Bruce’s credit card statements, and about other
concerns that she had about the management of

82a
CCMH.” During a board meeting in September
2014, “the Board addressed Strubbe’s concerns,
and announced there was going to be an
investigation into some [of] Strubbe’s allegations.”
This development was reported in a newspaper
article. However, board member Kuehl called
Strubbe two days later to say “that there was not
going to be an investigation and the Board was
going to give Bruce a ‘clean slate.’”
Strubbe and others also met with the Crawford
County Sheriff in September 2014 about the
mishandling of CCMH funds. During this time
frame, CCMH board members Swanson and
Dieber-Henningsen resigned from the board. Both
Bruce Musgrave (Relators’ supervisor) and Kurt
Wilkins (CCMH’s prior human resources manager)
told Relators that Bruce may have been misusing
CCMH’s credit card.
On November 24, 2014, Strubbe injured her
back and right shoulder while working at CCMH.
She was assigned various types of light duty work
while under a no-lifting restriction. However, in
July 2015, she was advised that “her injury and
light duty assignments were creating a financial
hardship on CCMH, and therefore she was
demoted to casual part time, losing her benefits
effective August 1st.” In August 2015, she was told
that she would not be discharged and, indeed, that
she would be placed back in her original position
once she was released by her doctor for full-time
duty. In November 2015, CCMH learned that
Strubbe was a plaintiff in this case. On January
21, 2016, Strubbe underwent a second surgery and
was expected to make a full recovery. However, her

83a
employment was terminated on March 4, 2016,
and the only reason she was given was that “she
had not worked in more than six months.” CCMH
then took action in an effort to have the State’s
licensing authorities suspend or revoke Strubbe’s
license. See Doc. No. 12 at 20-22, ¶¶ 104-26.
Accepting these allegations as true, Strubbe
engaged in two types of conduct that may have
constituted protected activity under the FCA: (1)
her inquiry into CCMH’s financial situation in the
fall of 2014 and (2) her commencement of this FCA
action in 2015. While I have serious doubts as to
whether Strubbe’s inquiry into CCMH’s finances
rose to the level of protected activity, I need not
decide that issue at this stage of the case because
her participation in this FCA action certainly did.
As for the other elements of an FCA retaliation
claim, Strubbe’s allegations are sufficient to
establish a plausible claim that the defendants
knew about her protected activity and retaliated
against her solely because of that activity. As such,
the motion to dismiss will be denied with regard to
Count IV.
b. Count V – Christie
Christie’s allegations in support
retaliation claim include the following:

of

his

Christie began investigating potential financial
mismanagement in the hospital in mid-2014. For
example, he requested information concerning
employee salaries over the previous year or two.
About ten minutes after making the request,
Christie was advised that Bruce needed to meet
with him. Bruce then came to the emergency room

84a
to tell Christie that it would cost Christie about
$100 to get a copy of the salaries.
In November 2014, Christie started telling
nurses and other employees that there was
something wrong with (1) the changes in the
breathing treatment procedures and (2) the
financial statements provided by CCMH to the
board. It was common knowledge that Christie was
investigating the hospital, and Christie was
specifically told by Jess Emsweiler, the nurse
manager, that she had heard he was investigating
CCMH.
On December 29, 2014, Jonathan Richard
started his employment with CCMH. On January
28, 2015, Christie discovered that Richard was not
properly licensed and advised his supervisor
(Musgrave) and others of this issue. In addition,
Christie asked Richard if he had a State of Iowa
paramedic card. When Richard stated that he did
not, Christie told him not to touch another patient
until he was properly licensed. The next day,
however, Musgrave told Richard to “tell no one”
and get a card, as that would take care of the
problem. Richard informed Christie and Strubbe of
Musgrave’s statement and went to Health
Department to get a paramedic card.
Christie called Steve Mercer at the Iowa DPH
to report that Richard was not properly licensed.
Mercer indicated that the department would
investigate the matter and requested Christie, and
anyone who had supervised Richard, to send an
email detailing the matter. Accordingly, Christie
advised CCMH employees DeLong and Trader that
they should send emails to Mercer. In addition,

85a
Christie sent an email to Bruce and to Heather
Rasmussen (CCMH’s compliance manager)
informing them that he had made the report about
Richard as required by Iowa law. Bruce
immediately threatened to fire Christie, DeLong
and Trader.
On February 5, 2015, a meeting was scheduled
for Richard and Strubbe to discuss the matter with
Bruce. When Bill Bruce was informed that Strubbe
intended to record the meeting, it was rescheduled
for a week later. The following week, the meeting
occurred with Bruce, Paula Cole, Trader, Richard,
and Strubbe in attendance. [Bruce called Rick
Eilander and told him that he was going to fire all
three individuals who had reported CCMH to the
State, specifically Christie, Trader, and DeLong.] 1
[Within the electronic patient care report software
used by CCMH, either Bruce or Musgrave had
entered Richard’s basic EMT number but changed
his title to paramedic.] [As such, Richard’s services
were knowingly and intentionally billed to
Medicare as a “paramedic” despite Richard not
being a licensed paramedic in the State of Iowa.]
During this time, Richard performed paramedic
duties, including breathing treatments, provision
of medication and tending to emergency room
patients.
Ultimately, the State of Iowa conducted an
investigation. By early May of 2015, May,
Musgrave and Bruce conspired to have Christie
fired. On May 5, 2015, Musgrave alleged that
Allegations in [brackets] are asserted upon information and
belief.

1

86a
Christie had referred to a patient as “fat.” Christie
had injured his back and called to request extra
lifting help for the patient. Trader was present for
the ambulance run. On May 6, 2015, Musgrave
wrote a complaint alleging that Christie had called
the patient “fat.” On May 14, 2015, Trader was
interviewed and denied that Christie had called
the patient “fat.” Two police officers who had been
present at the ambulance call likewise denied
hearing anything to that effect. On May 17, 2015,
Christie was notified that he would be switched to
day shift, resulting in a pay cut. On May 19, 2015,
Christie was again called in for an investigation.
Strubbe was present as Christie’s union
representative.
On May 20, 2015, CCMH and Richard were
cited by the State for violations of the State’s
licensing rules. On May 27, 2015, Musgrave and
Bruce continued to work together to get Christie
fired, this time for speeding in an ambulance, at
2:00 a.m., while en route to a time-sensitive
medical emergency call. Christie and Trader
responded to the emergency and saved the
patient’s life. The ambulance had a governor
installed to prevent it from reaching excessive
speeds. In addition, Iowa law allows ambulances to
exceed the speed limits. On May 28, 2015, CCMH
terminated Christie’s employment. CCMH then
took steps to try to have Christie’s paramedic
license revoked by the State of Iowa. See Doc. No.
12 at 23-28, ¶¶ 134-73.
Even accepting all of these allegations as true,
I find that Christie has failed to set forth a
plausible FCA retaliation claim. Christie alleges

87a
that during 2014, he requested salary information
and told some employees that something was
“wrong” with certain CCMH practices. Inquiring
into the validity of certain organizational practices
is a far cry from investigating whether CCMH was
engaging in fraud against the United States.
Christie’s allegations simply do not suggest that
his conduct was aimed at matters that were
calculated to, or reasonably could have led to, a
viable FCA action. Thus, they do not establish that
he engaged in protected activity under the FCA.
Moreover, even if Christie’s actions in 2014
qualified as protected activities under the FCA, he
does not allege that the defendants retaliated
against him at that time. Instead, the alleged
retaliation (including the formation of an alleged
conspiracy to arrange his discharge) began months
later, after Christie reported Richard’s licensing
issue to the State of Iowa. According to Christie,
that report led to an investigation by the State
which, in turn, led to a citation for violating the
State’s licensing rules. Christie contends that he
was discharged just eight days after the citation
was issued. These allegations do not give rise to a
plausible claim that the sole motivation for the
alleged retaliation was protected FCA activity. If
anything, Christie’s allegations suggest that he
was discharged in retaliation for reporting a
licensing violation to the State of Iowa, not for
engaging in activities relating to a potential FCA
claim. Defendants’ motion to dismiss Count V will
be granted.
c. Count VI – Trader

88a
Trader’s allegations in support of her
retaliation claim include the following:In 2014,
Trader began investigating financial matters at
CCMH, a fact that became widely known at
CCMH. Trader complained to nurses about the
inappropriate use of breathing treatments on
patients beginning in late 2014.
In January 2015, Trader reported details
concerning Jonathan Richard to the State of Iowa,
as already detailed above. In February 2015, she
was demoted from nights to days, resulting in a
pay decrease. Trader contends, on information and
belief, that this was done in retaliation for both her
financial inquiries and her report of the Richard
matter to the State.
On July 7, 2015, while responding to a car
accident, a volunteer from the Westside Volunteer
Fire Department assisted Trader in treating a
patient. Trader allowed the volunteer to assist
because Trader had been told that the volunteer
had a nurse exemption. This turned out to be
incorrect. On July 30, 2015, Trader received a
letter from the State indicating that CCMH had
reported her because the volunteer who had said
he had a nurse exemption did not have the
exemption.
On July 20, 2015, Trader asked for time off to
go to a nephew’s funeral, but was told in front of
other employees that she had to provide a copy of
the obituary before being allowed to take a day off,
implying that she was lying about the funeral. The
requirement of providing an obituary for a family
funeral is not a regular practice or policy of the
hospital. Nonetheless, on July 22, 2015, Trader

89a
gave the obituary, various Facebook posts and
other information to Brad Bonner, in-house
counsel for CCMH. Trader told Bonner of her belief
that CCMH was engaging in harassment and
retaliation against Trader for engaging in
protected activities. Trader has also continued to
face unspecified forms of discrimination,
harassment and derogatory statements from
CCMH management and Bruce. New employees
with less experience have been hired at a higher
rate of pay than Trader receives. Doc. No. 12 at 2829, ¶¶ 178-89.
Accepting these allegations as true, I find that
Trader – like Christie – has failed to set forth a
plausible claim for retaliation under the FCA. Her
general allegations that 26 she investigated
“financial matters” and complained about
breathing treatments do not suggest that her
conduct was aimed at matters that were calculated
to, or reasonably could have led to, a viable FCA
action. Thus, they do not establish that she
engaged in protected activity under the FCA.
Further, Trader’s allegations do not give rise to
an inference that the sole motivation for any
retaliation against her was conduct protected by
the FCA. She contends that the first retaliatory act
(a demotion to the day shift) occurred in February
2015, after she was involved in reporting Richard’s
situation to the State of Iowa. She alleges no
additional retaliatory conduct until July 7, 2015,
approximately five months later. She does not
allege that she engaged in any specific, FCArelated conduct between February and July of
2015. Like Christie, Trader’s allegations suggest

90a
that any retaliatory conduct against her occurred
because she reported a licensing violation to the
State, not because she engaged in activities
protected by the FCA. Defendants’ motion to
dismiss Count VI will be granted.
4. Individual Liability
Relators allege that Bruce can be held
individually liable for his actions with regard to
their FCA retaliation claims. Defendants argue
that individuals are not subject to claims of
retaliation under the FCA. I agree. In Scott v.
Bonnes, 135 F. Supp. 3d 906 (S.D. Iowa 2015), the
court noted that the FCA was amended in 2009
and that the phrase “by his or her employer” was
removed at that time. Id. at 919. The court
examined case law and legislative history
concerning the 2009 amendment and determined
that Congress’ intention in removing that phrase
“was to expand the number of plaintiffs, such as
independent contractors and agents, who can bring
an action under the FCA, but not to expand the
number of defendants who can be held liable.” Id.
at 920 (citations omitted).
As explained in Scott, Congress intended to
correct a Section 3730(h) “loophole” under which
“individuals who are not technically employees
within
the
typical
employee-employer
relationship, but nonetheless have a contractual or
agent relationship with the employer,” were not
protected under the FCA. S. Rep. 110-507, 26-27.
In explaining the proposed amendment, the
Senate Judiciary Committee wrote: “The
Committee believes this is a vitally important
clarification that respects the spirit and intent of

91a
the
1986
Amendments
while
offering
whistleblower protections to contractors and
agents who may come across fraud against the
Government and report it under the FCA.” Id. at
27. Further, I agree with the observation in Scott
that “in light of the numerous courts’ rejection of
individual liability in pre-2009 cases,” Congress
had the opportunity to draft the amendment in a
manner that would have imposed individual
liability but chose not to do so. Scott, 135 F. Supp.
3d at 921.
Because I conclude that Section 3730(h)(1) does
not impose individual liability in FCA retaliation
claims, I will grant defendants’ motion to dismiss
Count IV (the only surviving retaliation claim) as
against Bruce.
XI.

CONCLUSION
For the reasons set forth herein:

Defendants’ motion (Doc. No. 23) to dismiss is
granted with regard to Counts I, II, III, V and VI
of the amended complaint. Those counts are
hereby dismissed.
Defendants’ motion to dismiss Count IV of the
amended complaint is granted in part and denied
in part. Specifically, it is granted with regard to
defendant Bill Bruce and denied with regard to
defendant Crawford County Memorial Hospital.
Count IV is hereby dismissed as against Bruce.
This case will proceed with regard to Count IV
only, with Stephanie Strubbe

92a
as the sole plaintiff and Crawford County
Memorial Hospital as the sole defendant.
IT IS SO ORDERED.
DATED this 3rd day of February, 2017.
/s/ LEONARD T. STRAND
LEONARD T. STRAND
UNITED STATES DISTRICT JUDGE

93a

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-1022 United States of America, ex rel
Stephanie Strubbe, Relator, et al. Appellants v.
Crawford County Memorial Hospital and Bill
Bruce, Individually Appellees
_______________________________________
Appeal from U.S. District Court for the
Northern District of Iowa - Sioux City
(5:15-cv-04034-LTS)
_______________________________________
ORDER
The petition for rehearing en banc is denied.
The petition for rehearing by the panel is also
denied.
March 20, 2019 Order Entered at the Direction
of the Court: Clerk, U.S. Court of Appeals, Eighth
Circuit. ____________________________________
/s/ Michael E. Gans Appellate

